<html>
<title> - [H.A.S.C. No. 110-40] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         [H.A.S.C. No. 110-40]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

   BUDGET REQUEST FROM THE U.S. STRATEGIC COMMAND, NORTHERN COMMAND, 
              TRANSPORTATION COMMAND, AND SOUTHERN COMMAND

                               __________

                              HEARING HELD

                             MARCH 21, 2007


[GRAPHIC] [TIFF OMITTED]




                     U.S. GOVERNMENT PRINTING OFFICE

37-320 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN GILLIBRAND, New York         K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
             Paul Oostburg Sanz, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, March 21, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request from the U.S. Strategic 
  Command, Northern Command, Transportation Command, and Southern 
  Command........................................................     1

Appendix:

Wednesday, March 21, 2007........................................    45
                              ----------                              

                       WEDNESDAY, MARCH 21, 2007
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
   FROM THE U.S. STRATEGIC COMMAND, NORTHERN COMMAND, TRANSPORTATION 
                     COMMAND, AND SOUTHERN COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Cartwright, Gen. James E., Commander, U.S. Strategic Command, 
  U.S. Marine Corps..............................................     5
Keating, Adm. Timothy J., Commander, U.S. Northern Command and 
  North American Aerospace Defense Command, U.S. Navy............     7
Schwartz, Gen. Norton A., Commander, U.S. Transportation Command, 
  U.S. Air Force.................................................     8
Stavridis, Adm. James G., Commander, U.S. Southern Command, U.S. 
  Navy...........................................................     9

                                APPENDIX

Prepared Statements:

    Cartwright, Gen. James E.....................................    54
    Keating, Adm. Timothy J......................................    73
    Schwartz, Gen. Norton A......................................    94
    Skelton, Hon. Ike............................................    49
    Stavridis, Adm. James G......................................   118

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Abercrombie..............................................   147
    Ms. Bordallo.................................................   148
    Mr. Skelton..................................................   147
  FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
   FROM THE U.S. STRATEGIC COMMAND, NORTHERN COMMAND, TRANSPORTATION 
                     COMMAND, AND SOUTHERN COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 21, 2007.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    Today's hearing is part of our annual series of posture 
hearings with combatant commanders.
    I am pleased to welcome General Cartwright of Strategic 
Command (STRATCOM); Admiral Keating of Northern Command 
(NORTHCOM), who will soon be taking the reins at Pacific 
Command; General Schwartz at Transportation Command (TRANSCOM); 
and Admiral Stavridis.
    Do me a favor. Pronounce that correctly for me again.
    Admiral Stavridis. Sir, it is Stavridis.
    The Chairman. I got it. Thank you--of Southern Command 
(SOUTHCOM).
    And we are honored to have all four of you today. 
Appreciate what you do, and especially want to express 
gratitude to each of those who work with you and for you, in 
and out of uniform.
    Although the challenges we face in Iraq, Afghanistan, and 
elsewhere consume so much energy and resources, our attention 
should be in other parts of the world, as well.
    In Colombia we have spent over four billion dollars since 
1999 to stem the flow of illegal drugs into our country and to 
aid the Colombians in their fight against homegrown terrorists. 
But according to the latest figures from the Justice 
Department, the supply and purity of illicit narcotics in our 
streets has not changed much.
    The administration of President Uribe is also currently 
embroiled in a criminal investigation into a seemingly 
widespread conspiracy between high-ranking government officials 
and leaders of the paramilitaries.
    Guantanamo Bay, a name that now rings throughout our 
country--I would like to begin a discussion as to whether we 
should continue to use the naval station there as a detention 
facility.
    Although recent legislation, Supreme Court decisions, and 
Department of Defense directives have probably improved the 
nature of interrogation and detention at that place, I think it 
may be a bit too late. It has become in the minds of many of 
our allies a textbook example of how not to run a detention 
facility.
    NORTHCOM--Admiral Keating, I am interested in the status of 
planning and training activities between NORTHCOM on the one 
hand, and national guard and reserve components and local 
responders on the other.
    And as you know, the response to Katrina highlighted the 
need to better coordinate these activities, as cited in the 
recent Guard and Reserve Commission report, the commission on 
which someone who used to work in your shop, Stanton Thompson, 
has sat.
    Traditionally, I have been a strong proponent of the total 
force concept of integrating the reserve and active components 
into one effort. And yet, I am concerned about reports that 
NORTHCOM does not adequately understand the capabilities of the 
guard and reserve due to the fact that NORTHCOM is overly 
staffed by active duty personnel.
    With regards to STRATCOM, we are interested in the 
warfighter's perspective on the balance between nuclear and 
conventional forces in the future.
    I understand, General Cartwright, that you do recognize the 
need for a national discussion on this important issue, and I 
think that in that regard, I look forward to hearing your 
thoughts about the Reliable Replacement Warhead and 
Conventional Trident Modification programs, and what you can 
say publicly.
    I follow with interest the expanded role the warfighter has 
been playing in the missile field defense business, 
particularly in the context of the North Korean test of a long-
range missile last summer.
    In regard to TRANSCOM, General Schwartz, I believe that the 
critical issue for the committee will be to understand better 
the nature of our future mobility requirements. We are reaching 
ultimate decision points on strategic airlift production and 
modernization that will impact our capabilities.
    I ask that the total of my statement be put into the 
record. And I ask my ranking, my friend, Duncan Hunter.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 49.]

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman.
    And let me join in welcoming our guests. It is always good 
to have combatant commanders before us, because, gentlemen, you 
are directly in the chain of command and carry out the orders 
of the commander-in-chief, and you have extremely important 
pieces of this great operation called the American security 
apparatus.
    So, thank you for being with us this morning.
    Congratulations to Admiral Keating on your recent 
confirmation as commander of the Pacific Command. I know we 
will look forward to meeting with your replacement in NORTHCOM, 
General Renuart, in the near future.
    You know, in 2005, Hurricane Katrina demonstrated the 
importance of NORTHCOM's mission of support to U.S. civil 
authorities. And the recently released National Guard 
Commission report recommends that NORTHCOM should increase its 
capacity to execute its civil support mission.
    So, at the appropriate time, I hope you comment on how 
NORTHCOM executes its civil support mission and how it is 
reaching out to the national guard and working with state and 
local entities to ensure that it has full situational 
awareness.
    Admiral Stavridis, welcome to your first hearing as 
SOUTHCOM commander. We have had a chance to visit a little bit. 
Obviously, Latin America and the Caribbean are America's 
neighbors. And although there are no conventional threats in 
the region at this time, developments in the region do impact 
U.S. security.
    The U.S. and South America continue to work together. And 
while there are examples of progress, there continue to be 
regional security and political challenges.
    Illegal drug production and trade, particularly in the 
Andean Ridge, continues to be a problem. In Colombia, President 
Uribe, the first modern Colombian president to win reelection, 
is fighting narcoterrorism in his country with U.S. support. 
And I know we have chatted a little bit. You see good trends 
with respect to that issue.
    In Venezuela, President Chavez maintains close relations 
with Cuba and Iran, while aggressively importing arms and 
defense capabilities not proportional to its defense needs. And 
furthermore, there are indications that radical Islamists may 
be taking advantage of instability in that region.
    So, I am interested in learning how SOUTHCOM is working 
with its regional and interagency partners to address these 
challenges.
    Last, this committee continues to remain focused on 
SOUTHCOM's responsibilities for Guantanamo Bay. And I am going 
to reserve most of my comments until next week, when the 
committee intends to hold two hearings, but let me make one 
quick point.
    We, as a nation, cannot afford to close Guantanamo. It 
houses dangerous people who are intent on killing innocent 
Americans. And if you need a reminder of this fact, all you 
have to do is read this recently released transcript of Khalid 
Sheikh Mohammed's statements to the effect that he did, in 
fact, involve himself in the killing of thousands of Americans 
and sees no problem with killing more Americans, if given the 
opportunity.
    And I would just say that we have all seen the reports 
percolating that there may be moves to close Guantanamo and 
remove these terrorists into the United States.
    I think one of the most dangerous things we could do is 
move people who have expertise in explosives anywhere close to 
the general prisoner population in the United States. I think 
isolation is absolutely appropriate.
    And as a guy who has been down to Guantanamo with some of 
my colleagues on the committee, and having looked at the 
conditions, at the outstanding medical care that is given 
people in Guantanamo, you know, their health care there would 
rival that of most health maintenance organizations (HMOs) in 
the United States.
    The food is excellent. They are given taxpayer-paid-for 
prayer rugs and Qurans, and their routine is interrupted five 
times a day for prayer.
    When you look at the reports from international agencies 
that complain about lack of square footage and other things 
that I would consider not to be substantial complaints, I think 
it is very clear that Guantanamo is being run very 
professionally. But beyond that, it is a necessity in this war 
against terror.
    So, maybe you can touch to some degree on Guantanamo. I 
know we are going to have extensive hearings on Guantanamo 
shortly.
    General Cartwright, thank you for testifying before us 
twice in a couple of weeks.
    In this post-Cold War environment, we have got to have a 
full range of capabilities to deter and respond to multiple 
threats and adversaries that span the gamut from transnational 
terrorists and rogue nations like North Korea, who just tested 
this missile that the chairman mentioned a few minutes ago, and 
is working to develop ways to deliver its new-found nuclear 
capabilities.
    So, I think the committee would appreciate also hearing 
about our Nation's strategic posture needs. And I am 
particularly interested in the Conventional Trident 
Modification Program and hearing about the need for the 
Reliable Replacement Warhead and the combatant commander's 
missile defense needs. So, if you could talk about that 
briefly, that would be good.
    Last, the chairman mentioned the Chinese anti-satellite 
test (ASAT) that occurred in January. And though its target was 
a Chinese weather satellite, it sent a clear message. Most 
people do not try to attain the capability to shoot down their 
own satellites. And I think that that heralded a new era of 
military competition in space, whether we want it or not.
    So, understanding this is not a classified hearing, maybe 
you could testify a little bit about your thoughts with respect 
to that recent test.
    General Schwartz, welcome to you. You obviously are a 
critical player in the nation's warfighting operations today. 
And let me just thank you. You have always been extremely 
responsive to all the services and their transportation needs, 
especially in the warfighting theaters.
    I know you have some thoughts on where we are going to go 
with lift, and you are going to have to make some difficult 
choices. Thanks for your efforts on behalf of all the 
warfighting forces. And please let us know how we can help you 
become more efficient and stretch those TRANSCOM dollars.
    So, gentlemen, thank you for being with us today.
    Mr. Chairman, thank you for holding this hearing. It is 
absolutely timely and critical to the nation's defenses, and I 
look forward to the testimony.
    The Chairman. Thank the ranking member.
    Since we have four witnesses today, I hope that you will do 
your best to confine your remarks. And we will, without 
objection, put your prepared statements in the record.
    I would also recommend to the members, since we are under 
the five-minute rule, that you may wish to confine your 
questions on the first round, at least, to one or two of the 
witnesses.
    So, without any further ado, General Cartwright, welcome, 
sir.

    STATEMENT OF GEN. JAMES E. CARTWRIGHT, COMMANDER, U.S. 
              STRATEGIC COMMAND, U.S. MARINE CORPS

    General Cartwright. Mr. Chairman, Congressman Hunter, I 
appreciate this opportunity to come and testify today.
    Since I have had the opportunity to testify before some of 
your subcommittees, and that is a matter of record, I am not 
going to go into any great detail until we get to the question-
and-answers, and leave it for that. But I think there are a 
couple of issues that were highlighted by both the chairman and 
Congressman Hunter that are worth at least a mention here in 
the preamble.
    The threat out there is growing, and it is expanding. And 
as was said earlier, it spans from the conventional or the 
nation-state challenges that we have to rogue states and 
extremists. And this is a broader threat than we have taken on 
in the past.
    And so, trying to define a deterrence strategy for the 21st 
century and the capabilities necessary to lend credibility to 
that deterrence is what STRATCOM has focused its efforts on.
    And I think, in moving forward here, I am going to hit just 
a couple of points, the first being on our offensive 
capabilities and the discussion about our nuclear capabilities.
    And given that this is an open hearing, let me just say 
that we entered into an agreement with the Russians called the 
Moscow Treaty. It set limits on our active stockpiles and 
drawdown, and a goal for 2012. In 2007, which is where we are 
today, was the midpoint in that drawdown, and both we and the 
Russians have reviewed our progress in that activity.
    Both of us are ahead of schedule in shutting down systems 
and the active stockpile. But the active stockpile is only one 
part of our stockpile. There is also the inactive portion of 
it.
    In the strategy that has been put forth by this 
Administration, and that we are working toward is, the lowest 
number of nuclear weapons necessary for national security. That 
is the objective.
    And so, as we move forward on the drawdowns in response to 
the Moscow Treaty, we need to increase our other capabilities 
as alternatives and replacements for the drawdown of the 
nuclear weapons that we have in our stockpile.
    Part and parcel to that, in that drawdown through 2012, is 
refurbishing the stockpile that we have. And the activity that 
we are undertaking here is to ensure that the weapons that we 
have are the safest they can be for the people who use them and 
handle them, that they are as secure as modern technology will 
allow us to make them, and that they are reliable.
    All three of those attributes will help us draw this 
stockpile down. All three of those attributes will have effect 
on both the active and the inactive stockpiles. That is 
critical.
    The Reliable Replacement Warhead, which just finished its 
first study efforts, is now entering into the second phase of 
study. That is our intention, to move into the more detailed 
engineering studies.
    The activity associated with that and the capability that 
we are seeking with this Reliable Replacement Warhead is first, 
safe, secure, and reliable; second, its form, fit, and function 
replacement for the existing weapons.
    In other words, there are no new delivery vehicles. There 
is no new capability. This is taking my 1966 Mustang and making 
sure that it has got four-wheel brake disc brakes, it has got 
seat belts--it has got all of the things that it ought to have 
to be responsible, to maintain control over and be able to use 
and develop these weapons in a safe, secure way.
    And that is our intent with the Reliable Replacement 
Warhead.
    In order to get to the lowest numbers necessary for 
national security, we have got to see the emergence of 
conventional capabilities to replace or augment some of the 
existing nuclear capabilities. One of those that was mentioned 
in the opening statement was the conventional Trident.
    What we are seeking here is prompt, global strike. And with 
the technologies we have today, we can do that with 
conventional weapons. And we can draw down the number of 
nuclear weapons necessary to accomplish prompt global strike, 
number one.
    And number two, we can have a capability that is beyond 
nuclear. In other words, today, if something happens quickly 
and we have to respond quickly, the only choice that we have in 
a global capability is a nuclear weapon.
    That is unacceptable for the range of threats that we are 
going to face in the future. We need a conventional capability. 
It will be more appropriate for several of the scenarios, and I 
am happy to discuss that, to the extent that we can, in this 
hearing.
    The second piece of this activity is a defense that is 
credible. In other words, what we want is a balanced offense-
defense capability.
    Offense is not always the right answer, and it is usually 
where you do not want to end up. What we want to be able to do 
is drive this to a non-confrontational issue, whatever happens 
to occur.
    And so, a defensive capability gives us a way to defuse 
things, to devalue things.
    The asset out there in the world that has got the biggest 
market right now are short-and medium-range ballistic missiles. 
And we have got to find a way to respond to those.
    They launch quickly, and they arrive quickly. They do not 
wait for conventional force to close. They threaten neighbors.
    How do you devalue those, so that they stop proliferating? 
How do you make the governments who have them think twice about 
using them, number one, and think twice about the effect that 
they are going to have?
    How do you change the adversary's calculus about his 
opportunity to be successful with these short-and medium-range 
ballistic missiles?
    That is the next phase that we have got to start to take on 
with ballistic missile defense.
    The phase after that that we are starting to look at is 
cruise missiles. And what are we going to do against the 
proliferation of cruise missiles and their increased 
sophistication?
    What we are convinced, at least inside of STRATCOM, is you 
do not want to build a completely separate system for cruise 
missiles. You want to leverage the lessons that we have learned 
and the capabilities and command and control and sensor 
management that we learned in ballistic missile and apply that 
to cruise missile, rather than building a separate system.
    And that is the path that we are on. I would be happy to 
have more discussion about that.
    Two other areas. Space: There were questions about space 
and the ASAT test. I would be happy to discuss that.
    But the position from the command is, number one, just 
because there is a threat in space does not mean you have to 
respond in space. We do not need an arms race in space.
    And the last piece is cyber. In cyber, this country is 
under attack on a daily basis, whether it be in the commerce 
and industry sectors, in the academic sectors or in the defense 
sectors.
    We have to start to understand how we are going to contest 
this environment, provide defenses for the country, rather 
than, as we do today, just defend the terminals, wait for a 
patch and lose money the whole time, or lose intellectual 
capital the whole time that we are waiting for somebody to fix 
a vulnerability.
    We have got to start to extend our defensive perimeters out 
beyond the terminals, beyond the computers and the firewalls.
    Mr. Chairman, I will yield the rest of my time here to my 
counterparts.
    [The prepared statement of General Cartwright can be found 
in the Appendix on page 54.]
    The Chairman. General, thank you so much, and we will look 
forward to asking you those questions to which you referred.
    Admiral Keating, I guess this is your last appearance in 
your present role.
    Admiral Keating. I think so.
    The Chairman. Thank you for your excellent service in the 
past. We look forward to your future service.
    Admiral Keating.

STATEMENT OF ADM. TIMOTHY J. KEATING, COMMANDER, U.S. NORTHERN 
COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE COMMAND, U.S. NAVY

    Admiral Keating. Thank you, Mr. Chairman, Congressman 
Hunter, members of the committee. It is a privilege to appear 
before you this morning to represent the men and women of North 
American Aerospace Defense Command and the United States 
Northern Command.
    Homeland defense is the core of our national military 
strategy. And while NORAD and NORTHCOM are separate commands, 
we operate with complementary missions. We work together for 
our sacred mission of defending our homelands.
    We operate within a common security environment. We share a 
headquarters staff. We embrace common values. We understand the 
importance of executing our duties with a sense of urgency in 
the face of very real and present dangers.
    It is my honor to represent all those fine young men and 
women before you today.
    The core capability to accomplish our missions resides in 
our people. We are grateful for your support, Mr. Chairman, and 
all the Congress, for our soldiers, sailors, airmen, Marines 
and Coast Guardsmen. Their welfare and the welfare of their 
families is our highest priority.
    We remain resolutely committed to defending the United 
States and Canada and Mexico against all threats.
    To address a couple of questions, Mr. Chairman and 
Congressman Hunter, that you asked in your opening comments, we 
are vitally interested in providing the American people the 
capabilities that they need to defend our homeland and to 
provide support to civil authorities when we are directed.
    That means an integrated team of active, reserve and guard 
forces. That is our sole focus, the integration of this team.
    We have seven general officers on our staff at the United 
States Northern Command who are reserve or guard officers--
seven. Over 150 troops come through our doors every morning who 
are reserve or guard or Air Guard forces.
    We have an annual conference in the late winter with all of 
the hurricane adjutants general--the adjutants general from New 
York all the way around the Atlantic Coast and the Gulf Coast 
of Texas. Ten to a dozen adjutants general come every spring, 
and we discuss the requirements that may well be levied upon us 
if a hurricane is of sufficient import.
    I have met with each and every adjutant general of the 
United States and discussed face-to-face with them their issues 
and our issues.
    I am convinced that we are on the same page, Mr. Chairman, 
and that we have a common purpose: to provide the American 
people with the support that they deserve.
    I look forward to your questions.
    [The prepared statement of Admiral Keating can be found in 
the Appendix on page 73.]
    The Chairman. Admiral Keating, thank you, sir.
    General Schwartz.

     STATEMENT OF GEN. NORTON A. SCHWARTZ, COMMANDER, U.S. 
             TRANSPORTATION COMMAND, U.S. AIR FORCE

    General Schwartz. Mr. Chairman, Congressman Hunter and 
members of the committee, it is also a pleasure and a privilege 
for me to represent the 150,000 folks in the Transportation 
Command who basically move by air, land and sea the materiel 
and personnel of the Department of Defense.
    We, during 2006, I think, have provided noteworthy support 
to the department, as well as made considerable efforts to 
advance the distribution processes and systems that we depend 
upon, along with the remainder of the logistics community.
    Fundamentally, I think we have focused our attention on 
making sure that the right personnel, the right equipment, the 
right sustainment and support is delivered at the right place 
and time in order to support, as you suggested earlier, our 
warfighters.
    In addition, we have the responsibility of being the 
distribution process owner for the department. And in that, we 
are laboring to improve the precision, the reliability and the 
efficiency of the DOD supply chain, simply by improving 
business process, by making information systems interoperable 
and by securing enhanced mobility assets.
    I would also note, Mr. Chairman, that we take particular 
pride in the rewarding aero-medical evacuation mission. And we 
do that with special care.
    I could not be prouder of our joint team and our national 
partners. We all are supporting the global war on terror while 
making a concerted effort to transform the military deployment 
and distribution enterprise.
    I am grateful to you, sir, and to the committee for 
allowing me to appear before you today, for the essential 
support that you provide in enabling our capabilities. And I am 
prepared to take any questions that you have, sir.
    Thank you.
    [The prepared statement of General Schwartz can be found in 
the Appendix on page 94.]
    The Chairman. Thank you so much, General Schwartz.
    Admiral Stavridis, welcome.

STATEMENT OF ADM. JAMES G. STAVRIDIS, COMMANDER, U.S. SOUTHERN 
                       COMMAND, U.S. NAVY

    Admiral Stavridis. Thank you, sir.
    Mr. Chairman, Ranking Member Hunter, distinguished members 
of the committee, thank you very much for the opportunity to 
come before you today and discuss some of the issues, what we 
are doing, and the challenges we face throughout Latin America 
and the Caribbean.
    I want to thank each of you personally for your service. 
And I would encourage each of you to come travel in the region. 
And I would encourage you to come to Guantanamo Bay and see it 
for yourself, if you have not done so.
    On behalf of all of us at Southern Command, thank you for 
the support you provide to us, just as you do to my wingmen 
here today.
    I do want to say to General Cartwright and Admiral Keating 
and General Schwartz, thank you for all the support you give to 
U.S. Southern Command. We appreciate it greatly.
    Our mission down south is straightforward: to promote 
security cooperation and conduct operations with the 32 
countries and 13 territories that are down south of Mexico. 
About 450 million people live down there. And we feel our work 
contributes to the defense of the United States.
    Our ability to accomplish the mission is significantly 
influenced by our understanding of the diversity and the 
culture down south, and that is an important part of what we 
seek to do at U.S. Southern Command.
    On that note, I would say all of us in the United States 
think and understand that we live in a shared home called the 
Americas. We tend to think of the term American as applying to 
a citizen of the United States, but we are all Americans in 
this hemisphere. It is an extraordinary and diverse part of the 
world.
    And I would argue that the part of the world that I am 
engaged in is not America's ``backyard.'' I do not like that 
expression much. I would not even call it America's front 
porch. It is part of a shared home that we all have together.
    I have been in the job about five months. I have had a 
chance to travel pretty widely since then, and I can tell you 
that our partners in the region are making, I think, good, 
strong progress.
    They face significant threats and challenges: narcotics, we 
have talked about a little bit; gangs--``pandillas'' and 
``maras'' they are called--to the south; illicit trafficking in 
human persons.
    The challenges of this region are many, but they are not 
straightforward military challenges. And thus, there is a 
particular emphasis in this part of the world on working with 
the interagency, working with our partners at State, with 
Homeland Security, particularly the Coast Guard or the Drug 
Enforcement Agency and many others.
    I would tell you that everything we do in Latin America and 
the Caribbean, frankly, depends on strong interagency linkages.
    Given that, I think it is important to understand the great 
potential of the region. And if we can unlock that together--
the United States and the other nations of the region working 
together--we and the military-to-military realm want to be part 
of that in a very positive way. And that is what we seek to do.
    I would like to close, as my compatriots have, by just 
saying how proud I am to serve alongside the men and women of 
the U.S. Southern Command: active duty, reservists, civilians, 
soldiers, sailors, airmen, Marines, and Coast Guardsmen. I 
could not ask, as we would say in the Navy, for better 
shipmates anywhere ashore in the world.
    Thank you again to the members of the committee, the 
chairman and the ranking member. Appreciate your time, and I 
look forward to your questions, sir.
    [The prepared statement of Admiral Stavridis can be found 
in the Appendix on page 118.]
    The Chairman. I certainly thank you gentlemen for your 
excellent testimony.
    I will ask one question of Admiral Stavridis and then turn 
to my ranking, and then we will be off and running on the five-
minute rule.
    Admiral, the United Nations, some members of the Congress 
and other people in and out of our country have raised the 
issue of the detention and interrogation facilities at 
Guantanamo.
    Could the detainees be held elsewhere within your area of 
responsibility with the same security and effectiveness?
    Admiral Stavridis. No, sir. I do not believe they could be 
held anywhere in my area of responsibility with the same degree 
of security and effectiveness.
    I believe at Guantanamo Bay we are operating a humane, a 
legal, and a transparent detention and interrogation facility.
    Transparent--we have had over 2,000 journalists visit it 
over the last four years. We have had over 2,000 high-level 
visitors, including many, many members of Congress. Most 
recently, Senator Levin and Senator Graham came down just this 
past week.
    We fully follow Common Article 3 of the Geneva Convention. 
We follow the laws of the United States. We will continue to do 
that.
    I believe it is a humane facility. I think compared to any 
facility in the world, it is a very humane and well-run 
operation.
    I personally cannot think of another location in my area of 
responsibility that would make sense to move these particular 
individuals. And I believe they must be kept in a place where 
they are not free to do the kinds of things that have occurred 
before in terrorist acts against the United States.
    The Chairman. My friend, Duncan Hunter.
    Mr. Hunter. Mr. Chairman, thank you.
    Mr. Chairman, following your custom here, I see Mr. Conaway 
and Mr. Davis down in the front row. I would be happy to pass 
on my time and yield them my time under the five-minute rule, 
and I will ask a few questions at the end of the hearing.
    The Chairman. You bet. Which one do you choose?
    Mr. Hunter. You know, I think Mr. Davis is getting up 
there.
    The Chairman. All right. Mr. Davis is recognized for five 
minutes.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    I thank you, Ranking Member Hunter, for the opportunity.
    One question that many of us are interested in, 
particularly as we deal with the challenges of the rising 
problems with Islamic radicalism, seeing the action of our 
agencies, particularly during Hurricane Katrina, other issues 
that we have run into, I am very curious about your views of 
interagency reform needs, in Southern Command in particular.
    And generally from a Northern Command and homeland defense 
standpoint, if Admiral Keating and Admiral Stavridis might 
comment on some statutory changes that might improve the 
interagency process, to make our interagency community a little 
bit more expeditionary, but also more integrated, to anticipate 
the types of things, particularly the non-military types of 
things, where we can preempt or minimize the likelihood of 
conflict.
    Admiral Keating. Congressman Davis, I would be happy to 
start, and then Jim can provide his perspective.
    We have 60, at Northern Command, different agencies 
represented in our headquarters. So, that is true interagency 
representation.
    It goes beyond that, however. There is actual productivity. 
It is not just activity, but it is productivity during the 
courses of exercises--and we conduct a number of those--during 
the courses of real-world operations. We benefit significantly 
from the presence and the expertise represented by those 60 
different agencies.
    And it is not all federal. About two-thirds of those are 
Federal agencies, and a third are non-federal, like Red Cross, 
World Health Organization, and folks like that.
    As far as the imposition of statutory concerns for us, I am 
unaware of any that would be of significant early benefit 
compared to the day-to-day operations that we conduct and day-
to-day staff work, though I think there is merit in some 
consideration, and I believe this is under way for the similar 
Goldwater-Nichols-like education and joint duties as requisites 
for promotion within other agencies, sir.
    Admiral Stavridis. Well, as is often said on Capitol Hill, 
I would like to associate myself with Admiral Keating's 
remarks. I would echo the fact--the good news is that there is 
an awful lot of interagency partnering that is going on in all 
the combatant commands and with all the partners exactly as 
Admiral Keating indicated.
    What we do at Southern Command is, we have just stood up a 
new directorate. We call it the J-9. So, it is one of our key 
functionalities within the command, that is devoted to the 
interagency. It is staffed with interagency partners. Various 
agencies around the government have volunteered to put people 
into this group down in Miami.
    And I would argue that, as we look forward at the future of 
combatant commands, they will start to look a lot more 
interagency, more combined, more international partners 
involved and in the headquarters. We have six international 
partners who are in our headquarters with us.
    And again, I agree with Admiral Keating, that exactly the 
type of wisdom that Congress had in passing Goldwater-Nichols, 
which led to a better level of jointness between the services, 
I think that is an extremely rich area for study, and should be 
pursued.
    And again, we are trying to do it at our own level, but it 
certainly would be a sensible topic to pursue. Again, certainly 
in Southern Command, where so many of the tasks we face, the 
challenges we face are not direct military kinds of things.
    We are not launching Tomahawk missiles downrange in 
SOUTHCOM. We are launching ideas. And we need interagency 
partners to help us do that.
    Mr. Davis of Kentucky. That is one area that we would like 
to work with you on, having seen a consistent pattern of 
challenges faced, whether it was during Hurricane Katrina in 
Haiti, the military can only get the ball so far down the 
field. And I think we are dealing with the same things in Iraq 
and Afghanistan right now, where the visible cost is so much 
higher.
    But a lot of the types of challenges that could be faced by 
a more integrated--and I still get the sense that there will 
have to be statutory change to amend personnel policies and to 
change some of these priorities, you know, ranging from 
reconstructing a banking system after a hurricane to more 
complex matters.
    So, thank you.
    I yield back my time, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thank you so much for all the great work that you all do.
    Admiral Stavridis, in your testimony, you state that your 
region is a highly likely base for future terrorist threats. 
And you comment, coupled with the significant reduction of the 
Navy presence in the Gulf Coast--you know we shut down the only 
deepwater base we had, which was Naval Station Ingleside.
    And it was not too long ago we had a big meeting here, and 
the question came up about who were the gangs involved. One of 
the gangs, prominent gangs, that came up was the Mara 
Salvatrucha. You are probably very familiar with them.
    Admiral Stavridis. Yes, sir.
    Mr. Ortiz. But, you know, I am also concerned with the 
drilling in the Gulf of Mexico. I am concerned with keeping the 
commercial sea lanes open in the Gulf of Mexico. I am concerned 
with all the refineries in the Gulf of Mexico. We do not have a 
deepwater sea port.
    You are doing a great job by doing exercises with the 
different countries in that area. But you know what? I am very, 
very concerned.
    And I read in the statement that you said that the economic 
linkage between the nations of the Americas has risen 
dramatically over the last decade, with north and south trade 
comprising about 40 percent. Well, it seems to me that the Navy 
does not look north and south--at least the overall Navy. I was 
told that they look east and west.
    But are you happy with what we have there? Could we do 
more?
    I am very, very concerned. They are our neighbors, and it 
seems to me that we have not really focused.
    And I know it is not entirely your responsibility. We have 
to do something to help you.
    And then you mention about Hezbollah, as well. That 
terrorist group has a prominent--and now, I know I am asking 
too many questions, but they are very much in that area. And I 
am concerned that we do not have enough militarily to respond 
in case we do have a crisis.
    Maybe you can respond to--your statement was a great 
statement, maybe because I come from Texas, from the Gulf of 
Mexico. But that was a very, very good statement, Admiral.
    Admiral Stavridis. Thank you, sir.
    I am going to ask Admiral Keating to chime in here, because 
he is actually the combatant commander who has principal 
responsibility for the waters of the Gulf of Mexico. My border 
kind of runs just south of Mexico itself, and so, he owns those 
waters. I own the Caribbean waters immediately adjacent. But I 
think your question is relevant to both of us.
    As far as the Navy's posture and where it is located, I 
would certainly leave those questions to the chief of naval 
operations, who has the requirement to do the training, 
equipment, and organize.
    I would mention that last summer we had a Navy aircraft 
carrier come through those waters. A very successful 
deployment. We called it the Partnership of the Americas 
carrier. Did a whole series of exercises that ranged from 
military readiness to counterterrorism to counternarcotics to 
humanitarian and civic projects.
    We have multiple ship visits on any given day throughout 
the waters of the Caribbean. And this summer, as you may have 
seen, the President just announced that he approved an 
initiative that we sent up to bring a hospital ship into those 
waters.
    Clearly, it does not bring offensive power. But again, in 
this theme that we are not sending missiles downrange in Latin 
America, we are sending ideas and interactions and humanitarian 
assistance in so many ways. And that contributes to our long-
term security.
    We will have the Comfort in the region for over four 
months, which I think is very positive.
    We were also operating something called Enduring 
Friendship, which is a counterterrorism use of funds that the 
Congress allocated under section 1206 of the National Defense 
Authorization Act (NDAA) last year. That puts radars, boats and 
command and control apparatus in place in eight different 
nations of the region, which I think are helpful against the 
kinds of threats you so aptly identified.
    Last, the Navy is approving the deployment of something 
under an experimental type of concept called Global Fleet 
Stations, which will be a high-speed vessel, a swift, which 
will come into the area of operations and operate throughout 
the Gulf, partnering with our nations there to try and take on 
these kinds of threats that you, again, correctly articulated.
    Admiral Keating, anything to add to that, sir?
    Admiral Keating. Congressman Ortiz, I would share your 
concern about the threat to our homeland from terrorists. We 
share that concern, and we are working across the spectrum with 
those capabilities in the Department of Defense, not just from 
a Navy perspective, though we are actively working with the 
Navy, the Coast Guard and Air Force in particular.
    Their forces are integrated in the this overall system-of-
systems that we have, that we think is doing an adequate job of 
addressing approaches to our homeland, whether they are air, 
land or maritime.
    Mr. Ortiz. Thank you so much. My time is up. Thank you so 
much.
    The Chairman. Thank you.
    It looks like Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    Two of the happiest four-stars maybe in the world are 
sitting here. I know General Cartwright, because he is a Marine 
aviator on an Air Force base, and Admiral Keating, because he 
has taken a back-to-back hardship tour, moving from Colorado 
Springs to Honolulu.
    Congratulations to you both, and to all of you.
    I want to associate myself with the remarks and discussion 
about the interagency process. Admiral Keating and I have had 
discussions about this a number of times. And if I have the 
chance, I would like to get back to that.
    But I would like to go to SOUTHCOM, if I could, for just a 
minute. And while we were gathering before the hearing, you 
were speaking in Spanish for a minute or two and sounded 
conversant, if not fluent. After sort of ``buenos dias'' and 
``bienvenidos,'' I tend to run out.
    But the question is, your whole area of responsibility--
well, absent Brazil and Belize and maybe one or two others--is 
Spanish-speaking. How are you staffed? What is the competency 
in Spanish of your staff right now?
    Admiral Stavridis. It is one----
    Mr. Kline. Don't even think about it.
    Admiral Stavridis. Estudio studiando espanol una hora cada 
dia, porque es muy importante por el jefe o commando sur.
    I know Congressman Ortiz got that.
    Mr. Kline. I will ask for a translation from him later.
    Admiral Stavridis. Okay. I said I am studying Spanish about 
an hour a day, because I think it is very important for the 
commander of U.S. Southern Command.
    Of 450 million people, about 180 million speak Portuguese, 
which is similar to Spanish. The rest, largely, sir, you are 
correct, speak Spanish.
    I think it is a crucial part of what we need to do. If we 
are going to be involved in this region, we must learn the 
languages.
    These are not extremely difficult languages, as Japanese 
would be for a U.S. speaker, or Arabic or Pashto or Hindu. 
These are Romance languages. They are very similar to English 
in many ways.
    What we are doing at U.S. Southern Command is, we have set 
a goal that 60 percent of the personnel assigned will speak a 
second language, one of the languages of the region. That is a 
stretch goal. It will be a challenge to achieve it.
    We are putting resources behind that, everything from 
computer programs that people can self-learn, to having 
classes, to having testing of the----
    Mr. Kline. Excuse me. Where do you think you are now toward 
this----
    Admiral Stavridis. Sir, I think I am at 40 percent, which 
is extremely high. DOD-wide, it might be 20 percent.
    But at U.S. Southern Command, because we are lucky enough 
to be in the Miami area, a lot of people volunteer to come down 
who are of Hispanic descent. So, we have a rather high number 
of native Spanish speakers, which helps the rest of us as we 
seek to improve our facilities.
    I believe, to learn another man's language is to understand 
his life. I think it is an important aspect of integrating and 
acting in an area of operations. So, I am putting serious 
resources against it in this part of the world.
    Mr. Kline. Thank you. I agree with you, and I applaud you 
for that effort.
    I don't know. I guess we are always looking for ways that 
we can help, so if you will stay in dialogue with us. I am a 
little reluctant to put something like that in a statute.
    But, again, I commend you for that effort. And I am glad to 
hear it is moving that way.
    Admiral Stavridis. Thank you, sir.
    And I would mention that the Department of Defense has 
recently increased the incentives for individuals in the armed 
forces to learn foreign languages broadly around the world, and 
that is very helpful. And that is being funded by the Congress, 
and we appreciate it greatly.
    Mr. Kline. Right. Thank you very much.
    Admiral Stavridis. Yes, sir.
    Mr. Kline. The light is still green. It will not be for 
much longer.
    But, Admiral Keating, we have had discussions on a couple 
of occasions in your offices and in mine about this interagency 
process. And you have been able to get quite a bit done. I 
mean, we talked about plans that you have on the shelf, and 
those involved interagencies.
    One of my concerns is, this is personality, it can be 
personality-driven. If there is something that we can help with 
for process in institutionalizing it, we would like to be able 
to help.
    If you have got any comments now, the light is about to 
turn red, but I would like to----
    Admiral Keating. And nothing directly, Congressman. I do 
not know that a statutory imposition is a good idea.
    But your active and abiding concern, which many of you have 
demonstrated by visits, not just in Northern Command, but 
throughout the United States and visiting folks like civil 
support teams that are national guard and active duty, and the 
embedded defense coordinating officers that are Title 10 folks 
with the Federal Emergency Management Agency (FEMA) regions.
    As you course around the country and visit your 
constituents, I would recommend those locations to you.
    Mr. Kline. Thank you.
    And I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Admiral Keating, I am doing my best to try and figure out 
just what it is, four and a half years later, that the Northern 
Command does. Who is in charge of what?
    I have read through your testimony. I have gone through the 
staff preparation on mission and organization. I see a lot of 
words in here about homeland defense, referring to a concerted 
national effort to secure the homeland from threats and 
violence, as differentiated from homeland defense, referring to 
military protection of the United States, civil support areas, 
called C.S., in the area of homeland defense, with the DOD as 
the lead agency.
    Are you or are you not in charge of civil support defense 
of the United States? And if you are, who is subordinate to 
you, and what is the reporting hierarchy?
    Admiral Keating. I would answer the question, Congressman, 
that I am not in charge of civil support homeland defense. I am 
tasked by the secretary of defense and the President for 
defending the homeland and providing defense support to civil 
authorities.
    And I think the words matter here and the distinction is 
important.
    Mr. Abercrombie. I think so, too. I cannot figure out what 
you do. As far as I can tell, you have a group of people, 
approximately 500, because these budgets all disappear into 
joint task forces and all kinds of integrated team efforts. I 
cannot even find--I am doing my best to try and figure out 
where all your budget is.
    What precisely do you do?
    Admiral Keating. Defend our homeland and provide defense 
support to civil authorities.
    Mr. Abercrombie. Okay. Then what is your relationship to 
the Department of Homeland Security and the National Guard 
Bureau?
    Admiral Keating. The relationship to the National Guard 
Bureau is informal.
    As far as my dealings with General Steve Blum--who is a 
good friend; I talk to him frequently--he has, as you are 
aware, budgetary authority for the national guard and the 
international guard. And so, we work with him to advocate 
certain programs for him. But he has an $18-billion-a-year 
budget, and ours is $130 million. So, our impact on his budget 
is primarily through advocacy.
    In terms of our relationship with the Department of 
Homeland Security, it is not a statutory relationship. It is 
one that is based upon a common goal of providing security and 
support for the citizens of the United States.
    Mr. Abercrombie. What does that mean? Aside from being good 
friends and aside from speaking to one another, what does it 
mean?
    Admiral Keating. It is a lot more than that, Congressman. 
It is exercising frequently. It is sharing plans. It is sharing 
officers and staff workers.
    It is engaging in comprehensive activities across the broad 
range of our assignments and Department of Homeland Security's 
requirements to ensure that we are not again attacked, and that 
in the event of a catastrophe, whether natural or manmade, we 
work, when we are directed by the President, to operate closely 
with the Department of Homeland security to mitigate suffering 
and save human lives.
    Mr. Abercrombie. Okay. That is all very well and good.
    The National Guard Commission report says that, after four 
and a half years, the Northern Command should develop plans for 
consequence management--whatever that is--and support the 
civilian authorities that account for state level activities 
and incorporate the use of national guard and reserve forces, 
as first military responders.
    We have had four and a half years to plan that.
    Admiral Keating. The plans are done, Mr. Congressman. They 
are on the shelf.
    Mr. Abercrombie. They were not done as of March 1, 2007, 
according to the National Guard Commission report.
    Admiral Keating. The report is in error, sir.
    Mr. Abercrombie. Okay.
    Mr. Chairman, maybe we will need to get the National Guard 
Commission here, because Admiral Keating says that this 
commission report, which you have referred to, is in error.
    The Chairman. The National Guard Commission will be 
testifying before this committee on this Friday, as a matter of 
fact.
    Mr. Abercrombie. You do have plans now for consequence 
management and support of civil authorities that account for 
state-level activities and incorporation of the national guard 
and reserve forces in a first responder military activity in 
response to an attack on the United States. They are in 
existence.
    Admiral Keating. They do exist and have for some time.
    Mr. Abercrombie. Then who is in charge?
    Admiral Keating. It depends on what the President decides, 
whether he gives it to the Department of Homeland Security or 
Department of Defense. By statute, it is the Department of 
Homeland Security.
    Mr. Abercrombie. Oh, so you have Title 10 and you have 
Title 32.
    Admiral Keating. Yes, sir.
    Mr. Abercrombie. Now, that is already established as to 
whether the governor calls up a national guard unit under state 
status for payment by the state or by the Federal Government. 
And you bring in the posse comitatus situation under Title 10. 
We already know that that is established.
    I want to know who is in charge of these plans. Who 
executes them? Do you, or the national guard, or the individual 
states, or the Department of Homeland Security?
    Admiral Keating. It depends on the situation, the gravity 
of the consequence management challenge presented. And we are 
prepared to do it, if we are tasked. We in the Northern Command 
are prepared to execute that mission.
    Mr. Abercrombie. Or do you figure it out as you go along?
    Admiral Keating. It depends on the situation and it depends 
on who gets the assignment from the Department of Defense and 
the President of the United States.
    Mr. Abercrombie. Thank you, Mr. Chairman. I think we have 
to examine very, very closely whether this needs to go on, or 
that this is just another proliferation of tail-chasing 
bureaucracy.
    The Chairman. I thank the gentleman.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you, as always. Let me always express 
gratitude every time you come before a committee like this. 
Those of you who pay the price for human freedom, at least as 
we know it in America. I am very grateful to each one of you.
    General Cartwright, I have had an opportunity to talk to 
you in the Strategic Forces Subcommittee a number of times. And 
I am glad you are on our side.
    Let me first talk to you a little bit. It seems like most 
of the threats that this country has had in the past, just 
historically, for some reason, the trend has been that we never 
seem to recognize something before there is blood on the wall.
    There was a time when the Nazis were just a bunch of guys 
in brown shirts riding across the bicycles in France, and they 
were no threat to anybody, except that they had a dangerous 
ideology that had the ability to take hold.
    The Cold War began when we got one of our secrets lost in 
Los Alamos and the Russians kind of took it and ran with it.
    In each case, we could have probably responded earlier and 
maybe prevented some of the great challenges that we had. And I 
think that these things sneak up on us a little bit.
    But there is one thing in the distance that is not sneaking 
up on us, and that is the growing power and capability of 
China.
    I do not think they are being very quiet. And I think there 
is a rumble in the distance there, and that we need to be very 
aware of what is occurring there.
    Their ASAT test concerns me greatly. And obviously, I think 
it is important that the United States gain some superiority in 
space, as soon as possible, given the implications of that ASAT 
test.
    With that in mind, do you think there is enough urgency in 
this Congress and in this country related to our missile 
defense capabilities in space, our capabilities to defend this 
country in general, in that growing frontier?
    General Cartwright. Sir, I think, in regards to China, and 
in regards to the ASAT test, that we have set the conditions 
over the past five years to improve our situation awareness, to 
start to understand what is an appropriate defense in space, 
sensors and capabilities, and to understand that our responses 
to threats in space do not necessarily have to be directed or 
accomplished in space.
    The question for me--and I think you have rightly described 
it--is, are we moving quickly enough to foster ourselves in 
this environment? Should we be doing something else to make 
ourselves ready?
    And it is always difficult. I mean, the crystal ball is 
always better on Monday morning than it was on Friday before 
the game.
    And so, we have moved aggressively to improve our space 
situation awareness. There is a substantial amount of 
organizational construct. And we talked a little bit here 
about--we have listened to some interagency discussion on how 
we change.
    Many of those changes associated with space have been 
accomplished, and we are now in the process of executing those 
relationships, and starting to put them into beyond the 
personal, to actual directive, to connect the dots, so to 
speak, between the different agencies and their equities in 
space.
    The second piece is, as you alluded to, where is China 
going in this activity and how are they approaching it versus 
how we are approaching it?
    They have started to field what we call a continuum of 
capability, from the lowest end of capability all the way 
through the most sophisticated, and filling in all of the 
blocks en route.
    And ASAT, a direct ASAT, a direct ascent ASAT, is something 
that is effective against low-earth orbit satellites. It does 
not reach out into highly elliptical or other types of orbits 
out to geostationary. But it can reach many of the valuable 
satellites that we have down in low-earth orbit.
    Mr. Franks. General, forgive me. I hate to interrupt you, 
but I am almost out of time, and you did good, but I want to 
get this on the record, as well.
    Related to some of the missiles that we have been testing, 
we have had seven out of eight attempts with the missile three 
successful, and the missile two, the block two-four, against 
short-range target missiles in May of 2006--all successful.
    Isn't it time--and help me understand why not--that these 
be placed on our Aegis ships, so that at least we have that 
capability, in case it should ever be needed?
    General Cartwright. Yes, sir. And we are doing a limited 
deployment, but you always run the risk of transitioning while 
you are still testing, of building too many, and then finding 
out that the configuration needs to be changed, and now you 
have got to go back and re-change.
    We have built what we call a hedge--we are fielding that 
right now--sufficient missiles and ships that are matched in 
capability that can be deployed forward in extremis. And that 
is the hedge capability.
    We are trying not to overbuild until we have a good 
understanding of what the end state ought to be and finish all 
of the testing.
    Mr. Franks. Well, thank you, General.
    Thank you, Mr. Chairman.
    Sometimes the price of trying to aim ahead for some of 
these dangers is sounding a little bit overwrought before 
everyone else is.
    Thank you.
    The Chairman. Thank you.
    The next gentleman is Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    General Schwartz, I wanted to ask you--this topic has come 
up before--this issue of the statutory language that we put in 
the defense bill, I think, last year and maybe some other years 
also, in which we essentially prohibit you all from retiring 
old C-5s, old C-130E models. I think there are some other 
planes.
    It has been difficult for me to understand why we do that. 
Would you discuss that issue? My guess is that members get 
concerned that, if a plane is retired it will mean that there 
will not be any replacement coming to a particular local base.
    But what is the reality of that? How much money is it 
costing us? As somebody who has C-130Es with wing box problems 
in their district, I would just as soon they would be retired 
and we would try to replace them. I do not think they are doing 
anybody any good.
    But what is your perspective on that?
    General Schwartz. Congressman Snyder, in prior times when 
Base Realignment and Closure (BRAC) was a major concern, these 
issues about holding on to old iron perhaps had greater 
relevance.
    At the moment, we are in a situation where it is very 
challenging for the Air Force to manage the fleet in a way that 
optimizes their support of my mission.
    In the case of the C-130's, as you are aware, we have had 
difficulty retiring the old E models. And, as a matter of fact, 
those E models we have retired have to be maintained in 
recoverable status out in Arizona at the bone yard, if you 
will, which is a more expensive way to maintain the retired 
asset than if you simply retired it outright.
    And so, my point as the operator on this--and, of course, 
the Air Force is the organize, train and equip entity--but that 
I recommend that you give the Air Force the flexibility to 
manage the fleets to best effect, to support the joint force 
mission.
    And that means accessing old platforms and really making 
them go away, rather than remaining on the ramp, where the 
youngsters have to continue to maintain them.
    A key point--the maintainers that support the airplanes are 
really the coin of the realm. And if we have to spread their 
talent over a larger population of air frames, some of which we 
cannot really fly--it is true in the KC-135 fleet and also in 
the 130 fleet--it is not the right way to run this operation.
    Dr. Snyder. Do you need affirmative language from us in the 
defense bill? Or do you just need us not to put prohibitive 
language into the defense bill?
    General Schwartz. Sir, I think the latter is the approach, 
which would be not to have language which specifically affects 
certain aircraft----
    Dr. Snyder. The KC-135s, the C-130s----
    General Schwartz [continuing]. Certain locations, and so 
on. That is correct.
    Dr. Snyder. Are those the----
    General Schwartz. And for that matter, C-5s.
    Dr. Snyder. Are those the three, the C-5s, the KC-145s and 
C-130Es?
    General Schwartz. On the lift side, that is correct, sir.
    Dr. Snyder. On another topic, would you make a comment 
about the mobility capability study?
    There are some who have expressed concerns--I think the 
Government Accountability Office (GAO) is among them--that the 
study--I think maybe some people thought it was going to be a 
more far-reaching or revolutionary, or whatever word you want 
to use, that it seemed to endorse kind of a status quo look 
ahead.
    Now, that may not be a fair statement. Sometimes you look 
ahead and there is not a revolution on the horizon.
    But what are your thoughts about that?
    General Schwartz. Sir, the mobility capability study was 
not bold. I think that----
    Dr. Snyder. I am sorry. What? I am sorry.
    General Schwartz. It was not bold.
    Dr. Snyder. It was not bold, okay.
    General Schwartz. In other words, the way it came out, for 
example, was, for big airplanes there was a range of 292 to 
383, and this was a matter of how much risk you were willing to 
accept.
    It would have been more satisfying, I think, to all of us, 
had the study given us an objective. For me, big airplanes, big 
cargo lift airplanes, roughly 300 airplanes is the right 
target. And that is what I would recommend to you as the 
target.
    Studies inevitably are based on assumptions. And there are 
people--people can argue about whether the assumptions entailed 
with Mounted Combat System (MCS) was adequate.
    I can tell you, sir, that our sense is that about 300 big 
airplanes, about 400 C-130-like airplanes. And it remains to be 
seen what the tanker fleet looks like, but probably somewhere 
in the 400 to 500 aircraft range.
    Dr. Snyder. Thank you.
    I do not mean to ignore the other gentlemen, but thank you 
all for being here.
    Thank you, General Schwartz.
    General Schwartz. Yes, sir.
    The Chairman. Thank you.
    Ms. Castor appears to be the last on the before-the-gavel 
list, unless someone comes back that was on it. Ms. Castor is 
recognized.
    Ms. Castor. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here.
    Admiral, when it comes to Southern Command and enhancing 
our national security, I strongly believe that, yes, we need to 
continue to work on the partnerships with the nations there, 
yes, militarily, but also economically and politically. And I 
thought I would give you a short list of a few, and ask you to 
comment upon them.
    The Panama Canal right now is going through a widening and 
modernization. Could you comment on that, what you know about 
the status and the safety and security of that very important 
asset moving forward?
    Also, the struggles that we are having in Haiti. If you 
could comment briefly on Cuba, I would appreciate that. That 
could take much longer than five minutes.
    And then also, the Southern Command's medical readiness 
training exercises. When I think about, as we consider the 
markup and the resources that need to be spanned across the 
globe, I think it will be very important to enhance our 
national security, like I said, on the peacekeeping in the 
Caribbean Basin and Latin America.
    Talk to me then--have you asked for enough on humanitarian 
and civic assistance, your New Horizons program?
    And if we were able to target additional resources, where 
would you recommend?
    Admiral Stavridis. Thank you. And if I do not get through 
all that, I will get back to you taking the question for the 
record. But I think I can get through most of this quickly.
    Panama Canal--I am a naval officer. In fact, I am a ship 
driver within the Navy. We do have pilots and submariners, but 
I drive ships.
    I have driven ships through the Panama Canal, both when it 
was run by the United States of America and during the period 
of time now when it has been run by the Republic of Panama.
    It is an excellent, safe, professionally run facility. And 
I am very, very impressed with the work the Panamanians have 
done in the canal. It is really the beating heart of the 
economy of the Americas, when you look at the flow through the 
canal. It is extremely important. And I think it is a very 
well-run facility.
    We do an annual exercise with 20 different countries to 
look at the security of the Panama Canal. It is called Panamax. 
It looks at counterterrorism threats, which are always an 
issue. And it will be going on this June.
    Haiti, I think, is at this moment in a stable place. It is 
the poorest and most impoverished country in the region, as I 
am sure you know.
    The United Nations is there with about 6,600 peacekeepers. 
About half of those are provided from nations of the region. 
They are doing a very credible job building a base of stability 
from which, hopefully, prosperity can emerge.
    I am traveling to Haiti, in fact, with your colleague, 
Congressman Meek, in April, and I am looking forward to the 
trip.
    We do not have a large investment in terms of U.S. military 
presence. I would call it a success story by the United Nations 
in terms of what they are doing, and I look forward to learning 
more about it when I go down there personally.
    Cuba is obviously in an interesting moment in its history. 
Fidel Castro's health is a question mark. The degree to which 
his brother, Raul, has taken the reins of power is also under 
some question, given the health of Fidel. So, I think it is 
very difficult to make a prediction from this moment as to what 
will happen. We continue to watch the situation closely.
    Medical readiness--we have a series of projects to which 
you alluded, and I thank you for doing so, called the New 
Horizons, which are training projects for U.S. military folks 
who go down into countries in the region and provide services 
ranging from building a clinic to putting in a well to doing 
medical treatments.
    They are very successful as a means of both exercising the 
military and of undertaking the kinds of strategic 
communication we are talking about here, about launching ideas 
into the region.
    I will couple that with--the deployment of the Comfort this 
summer will be matched up with some of that. We treated, last 
year, 250,000 patients. We treated 80,000 animals. There is a 
veterinary part of this that goes with it. It is a very robust 
part of our program.
    We have requested funds from the Congress for it, and I 
think they are adequate to our needs. And I solicit your 
support for them.
    Thank you.
    Ms. Castor. Thank you.
    The Chairman. The next person is Mr. Saxton.
    Mr. Saxton. Thank you very much, Mr. Chairman.
    General Cartwright, I would just like to make a remark, and 
ask you if you would be willing to work with me. I have got a 
question that is probably best answered off-line. It relates to 
Boost Phase Intercept.
    I have noted the preponderance of our investment and 
activity and effort on mid-course and terminal intercept. And I 
had some folks from the Navy in the other day, and we were 
talking about boost phase. And it seems to me like we might be 
spending a little more time looking at boost phase, 
particularly from naval platforms.
    I would like to sit with you someday and spend some time 
just discussing that phase of missile defense, if that is 
possible.
    General Cartwright. I would be happy to do that, sir.
    Mr. Saxton. General Schwartz, thanks for being here this 
morning. I appreciate it very much.
    I was first elected to Congress in 1984. It seems like a 
long time ago. And one of my great experiences was to go out to 
McGuire Air Force Base, which is in my district, and spend some 
time with the then-21st Air Force commander, Don Logeais.
    And one of the activities that we did that day was to just 
ride along the flight line and look at the C-17s that were 
sitting out there--the CE-141s, excuse me--that were sitting 
out on the flight line.
    And I think, if my memory serves me correctly, there were 
62 birds that were assigned to McGuire at that time. And I 
remarked what a remarkable fleet it was. And General Logeais 
said--now, this was 1985--``They are wearing out.''
    And we went and had lunch and he said, ``There is one more 
thing I want to show you.'' And we went around the corner to a 
little reception room. And there on the wall was an artist's 
rendering of an airplane. It was a C-17, in 1985. And it would 
be six years until the next one, until the first operational 
model came off the line. It was actually in June. It was June 
14, 1991, that it rolled off the line.
    That was 16 years ago. And we did not know, when we started 
rolling them off the line, how many we were going to buy. First 
we said--I think the initial number was 100 or 115. And I think 
we arrived at that number for budgetary reasons. And then we 
bought 15 more for special ops, because we thought we needed 
them.
    And then we said, ``We are going to have to increase the 
size of the fleet,'' and then we went to 180. Last year we 
bought 10 more and we went to 190.
    And these birds, some of which are now 16 years old--I am 
going to use Don Logeais's words--are going to wear out and are 
on the way to wearing out. For a whole bunch of reasons: We are 
flying them more than we thought we would. We have been at war 
more than we thought we would. We are increasing the size of 
the military that we carry with them, more than we thought we 
would. The activities--we are doing tactical lift with them in 
theater in Iraq. Never thought we would do that. The C-130's 
wore out and made us do that.
    So, this is not the first time you and I have had this 
conversation, and I always appreciate having this conversation. 
But I think it is important that we put on the record here 
today, what, if any, plans you have to expand the buy of C-17s, 
and what needs to be done in order for us to have the resources 
to do that.
    General Schwartz. Congressman, I would ask only that we not 
focus exclusively on the C-17.
    Lift, on the air side, is a combination of platforms that 
are U.S. Government-owned and -operated--clearly, the C-5 and 
the C-17 principally.
    And, as well, there is a significant commercial component 
that contributes to our ability to operate the Department of 
Defense's transportation and distribution mission.
    A quick example, when we deployed the first of the five 
plus-up brigades to Kuwait and Iraq over the holiday period, 29 
of the 34 aircraft that supported that deployment were 
commercial. So, it is a significant piece of what we do.
    And what we need to do, sir, is to have the right number of 
organic airplanes and the capability to maintain our commercial 
partners.
    My belief is that, what we need is around 300 total, large-
lift, modern and reliable aircraft.
    Your point about airplanes getting tired is certainly 
valid. And you can compensate for that either through 
maintenance and repair of the aircraft or buying new.
    In the end, this is a question about opportunity cost. And 
if we buy additional C-17s, the question is, what else might we 
not get, like a new tanker, which, as you know, I believe is a 
more pressing requirement than additional C-17s.
    However, sir, if the collective wisdom is we need to 
continue to procure C-17s, what I would recommend is that you 
allow the department to adjust the fleet mix accordingly. That 
means to take down lesser utility aircraft, and that means C-
5As. That is the trade space. And that is what I would 
recommend.
    The Chairman. Ms. Bordallo, the gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Speaker.
    Admiral Keating, first let me publicly welcome you to the 
Pacific area.
    Admiral Keating. Thank you.
    Ms. Bordallo. There are some exciting changes and 
challenging times ahead, particularly in my area, the Territory 
of Guam, and the Pacific Command. I welcomed your visit 
yesterday, and I do look forward to working with you in the 
years to come. Welcome.
    General Schwartz, as the commander of Transportation 
Command, I respectfully request that you help provide the 
committee information on an issue of particular importance to 
my constituents; that is, military retirees who live on Guam 
who are referred off-island for specialty care and are forced 
to travel to those locations at their own expense.
    Prior to 2005, however, the Department of Defense 
reimbursed retirees for the travel expenses they incurred as a 
result of such medical referrals, or retirees were able to move 
on MILAIR flights from Guam and Honolulu that flew on a regular 
basis.
    But as a result of the loss of this MILAIR service and the 
change in policy and practice to no longer reimburse travel 
costs associated with referred specialty care, the costs are 
borne solely by the retiree. These trips to access referred 
specialty care in Hawaii or the state of California cost 
thousands of dollars.
    I have raised this issue with the assistant secretary of 
defense for health affairs, Dr. Winkenwerder, on a number of 
occasions, and did so most recently on March 8th. I am awaiting 
a response from the Pentagon about whether retirees on Guam, 
who had been referred off-island for specialty treatment, can 
currently travel on military aircraft on a space-available 
basis to receive that medical care.
    The retirees on Guam deserve resolution brought to this 
matter. Insofar as TRANSCOM plays a role in the policy for 
Space-A travel, and in the scheduling of MILAIR traffic in the 
Pacific region, I respectfully ask that you examine this issue.
    What I have proposed as an interim solution until we can 
adequately resolve the underlying transportation service and 
reimbursement issue, is that the department revise its policy 
to report our military retirees, who are medically referred 
away from Guam to receive specialty care, access to aircraft on 
a space-available basis.
    I have proposed that retirees should qualify for Space-A 
travel at the category two priority level, and therefore, 
treated the same as authorized personnel on environmental 
morale leave status.
    Can you comment?
    General Schwartz. Congresswoman, thank you for this input. 
This is a system issue that I was not aware of and one that I 
will certainly look into as you have requested.
    Let me just give you a little bit of background, though. 
The retirees are entitled to Space-A travel, notwithstanding 
their medical condition. And that is category three priority.
    We recognize that, because of the level of effort that is 
currently being devoted to Central Command, that, in the 
Pacific--and Admiral Keating will soon discover this--that the 
way we have compensated is by having commercial aircraft move 
cargo and people in the Pacific theater. That has limited 
space-available opportunities.
    In order to compensate, ma'am, what we have tried to do--
and we issued instructions to military aircraft in the Pacific, 
to maximize their Space-A capacity.
    So, for example, where the tankers routinely did not carry 
Space-A passengers, KC-135s, they now will. And they have 
guidance to do so. That is part of the solution.
    I will look at this question about the relative priority of 
retirees seeking specialty medical care, and I will get back to 
you, ma'am.
    [The information referred to can be found in the Appendix 
beginning on page 148.]
    Ms. Bordallo. Thank you very much, General, and I 
appreciate your response.
    The Chairman. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And, Mr. Chairman, following up on some of the conversation 
earlier, I want to encourage the committee to look further into 
this interagency process issue.
    I received, yesterday, a written report from one of my 
constituents who just got back from Iraq. And his belief is 
that this is one of our greatest deficiencies, is the inability 
of different agencies to effectively work together.
    And I would hope that, even though it extends, of course, 
beyond this committee's jurisdiction, I would hope that we can 
at least explore some of the problems, which was mentioned 
earlier.
    Let me try to get to two areas, briefly.
    Admiral Stavridis, we vote every year on funding for our 
efforts in Colombia, with some people arguing that we are 
making no progress. Can I get your view as to how things are 
going there?
    Admiral Stavridis. Yes, sir.
    I think, when thinking about Colombia, it is important to 
decide where you are going to start measuring the progress. And 
I would argue, we should look probably in the 1997, 1998, 1999 
timeframe, when Colombia was in really difficult straits. And 
there is a rich literature of the difficulties Colombians faced 
in those days.
    If you come forward from about the year 2000, moving 
forward, let me give you a couple of metrics that I would say 
are strong indicators of progress.
    One is that today, in 1,098 municipalities, there is a 
strong police presence all around Colombia. Another is the 
Revolutionary Armed Forces of Colombia (FARC) has been 
diminished in its membership, probably by about 30 percent, 
from 18,000 to 12,000.
    Additionally, one of the three insurgent groups of those 
days, the United Self-Defense Forces of Colombia (AUC), has 
been demobilized through a negotiated settlement with the 
government. Kidnappings are down 76 percent. Murders are down 
about 50 percent.
    The current president, President Uribe, enjoys very high, 
positive ratings in public polls by internationally recognized 
firms, well above 75 percent. Conversely, the FARC's approval 
rating is below 10 percent. I think those are metrics.
    Atmospherically, in my own travels in Colombia, I find you 
can move about far more freely than you could five or six years 
ago. My sense is, Colombia is far from perfect.
    They continue to strive to improve their human rights 
record. They are dealing now with a political problem 
associated with folks who perhaps had interactions with some of 
the right wing insurgent groups.
    But they are dealing with those in a mature, sensible way, 
the way a strong democracy does. It looks at a potentially 
difficult situation, and it goes to the courts and it resolves 
them.
    So, my sense is, Colombia is a nation on the move and they 
are doing well. And we should be proud of the efforts of the 
United States in that country, including the finances that were 
provided by the Congress, and the work of the very small number 
of U.S. military folks, less than 500, who have been in the 
country over that period of time.
    Mr. Thornberry. Thank you.
    General Cartwright, there is a press report today that the 
British have foiled an al Qaeda plot to take down the internet 
in Britain.
    You have been quoted in some trade press as not being 
satisfied, shall we say, with our country's approach to 
defending cyberspace.
    Can you elaborate a little more on what your concerns are 
and issues that you think we need to pay particular attention 
to in cyberspace?
    General Cartwright. I think, first, I am never satisfied, 
and I am always paranoid.
    To me, where we need to improve, one, we have taken effort, 
both in the Department of Defense over on the director of 
national intelligence and homeland security, to start to 
integrate offense and defense, so that the defenders have the 
capability to protect themselves, so to speak.
    Second is to start to layer this capability, like we would 
any other defensive plan, both in the cyberspace in defending 
the terminals, defending the backbone, defending the switches--
all of those things that are components of the internet, in 
this case--and start to do that in a way that is consistent 
with the way we defend the rest of our capabilities, onshore 
and expanding offshore, to be able to understand what is out 
there and what might be coming toward us.
    The key to doing that, and the challenge in this 
environment is that--let's take as an example Baghdad and a 
virus, say, that was launched from that part of the world 
toward someplace in the United States. Even if it takes the 
long route from Baghdad to geosynchronous orbit and back down 
to Chicago, it is only about 300 milliseconds.
    This is a very, very tight timeline to be able to assess 
the threat, figure out what the appropriate response is, take 
that action and have it be effective, before the threat reaches 
us. That means a tight command and control between the 
interagency process, all of those who would have equity--and 
the commercial sector--to be able to do this for the country.
    Understanding how to do that, understanding how not to 
disrupt freedom of speech--because a lot of things travel 
across these internet pipelines--understand what is a threat 
and what is not a threat, in those timelines, are the 
technologies we need to start to understand and acquire, and 
are also the factors we need to start to understand in statute.
    Do we have this right? Can we apply the appropriate 
authorities to a fight that occurs that quickly and does not 
have a lot of respect for geographical boundaries?
    Those are the challenges we are trying to understand, and 
that is where my frustration is, trying to get the technology, 
understand the fight that occurs in milliseconds, and 
understand how to apply the appropriate authorities to that 
fight so we do not abrogate freedom of speech and other things.
    The Chairman. Thank the gentleman.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here this morning, and 
thanks for your service.
    I want to start out with Admiral Keating. First of all, 
thank you for the things you have done at NORTHCOM.
    And as you prepare to leave, I would like you to comment on 
three things. First of all, the work that you have done with 
the Canadian government to monitor our northern border, the 
work that has been done with Mexico and our southern border. 
And if you could contrast those, I would appreciate it.
    And then third, if you can address the progress that we 
have made with former Joint Task Force (JTF)-6, now JTF-North, 
and its ability to expand its agenda, not just in support of 
all law enforcement agencies, but in its ability to expand from 
narcotics and immigration into terrorism, antiterrorism issues, 
as well.
    Admiral Keating. Yes, sir, I will do my best. And if I 
could wrap all three by starting with Joint Task Force North, 
Congressman.
    Mr. Reyes. Okay. All right.
    Admiral Keating. From your district, of course, Brigadier 
General Tony Ierardi is now the commander, about 150 folks in 
his headquarters. But I would recommend to you that their 
impact is much greater than their relatively small size.
    Examples: They have conducted many operations in the past 
two and a half years I have been fortunate to be at Northern 
Command, that are broad, interagency efforts. Relatively small, 
very small Title 10 or even reserve and guard inclusion--or 
rather, the forces are included--in these comprehensive 
efforts. In San Diego and the Pacific Northwest, down off the 
coast of Brownsville and one in southern Florida are the four 
most recent.
    And in each case it was interagency representation, 
Department of Homeland Security, Customs and Border Patrol, 
integrations in customs, active, reserve and guard forces--
using active and guard forces that were training for missions 
overseas, integrating those capabilities into this broad 
network of border protection activity.
    And in each case, we satisfied several intelligence 
priority objectives. Are there terrorists trying to get into 
the country? We did not capture any. And we continue to think 
that, while they may have plans to get in, they are not 
executing those plans.
    There is no known nexus between narcotraffickers and 
terrorists. We do continue, in support of the Coast Guard, 
principally, to find a significant flow of narcotics out of 
Jim's AOR into ours, primarily.
    And it is not just from south to north--this addresses your 
Canadian border interest--there is significant traffic from 
north to south.
    So, Joint Task Force North working both the southern and 
northern borders--all domains, not just land domain--to 
increase the security of our borders.
    We are working with Canada. They now have, as you are aware 
Canada Command, CANCOM, which is rather a counterpart to 
Northern Command.
    It is a newer combat organization, but they are our 
Northern Command counterpart, if you will, north of the border. 
And we have extensive liaison with them. Their commanding 
officer, Lieutenant General Dumais, is a good friend, and they 
are standing up their command.
    We are increasingly active on our southern border with the 
new leaders there, and my relief, General Renuart, will visit 
them within the next month.
    The Chairman. Thank the gentleman.
    Mr. Reyes. I really did not get my five minutes. That red 
light stayed on from the time that I was--could I ask for a 
ruling from the chair?
    The Chairman. If your feelings are hurt, you may go ahead 
and ask one more question. [Laughter.]
    Mr. Hunter. Mr. Chairman, my time is coming up. I would be 
happy to let Mr. Reyes have a minute or two of my precious 
time.
    Mr. Reyes. Thank you.
    Mr. Hunter. But he will really owe.
    Mr. Reyes. Actually, I just wanted to thank Admiral Keating 
and wish him well in his new position, as well.
    And then just finish up by asking Admiral Stavridis to 
address the issue, because there is a lot of interest in 
Congress about the allegations of corruption in the Colombian 
government.
    Can you give us your perspective specifically? I know you 
referred to it as a political problem, but I am concerned that 
that may become a bigger issue here in Congress, in spite of 
all the progress that you cited in Colombia.
    So, if you can just address that, I would appreciate it.
    Thank you, Mr. Chairman.
    Admiral Stavridis. Certainly, sir.
    I am not an expert on that. I think your question would 
best be addressed to our American ambassador there, who is an 
extremely capable person, Ambassador Bill Wood.
    From my perspective in the military-to-military contacts I 
have, what I sense is a willingness in the country to grapple 
with the issue. It is not being swept under the rug. It is 
being covered on the front pages of the newspaper.
    People have been indicted. They are pursuing it vigorously, 
as best I can tell, looking at it. They are looking it in the 
eye.
    And I would look at that as a sign of progress in the 
country, although certainly it is unfortunate, if the 
allegations are true.
    And again, I would close by suggesting you would get a 
richer understanding of the situation from our State Department 
counterparts who are actually in the country on a day-to-day 
basis.
    Mr. Reyes. Has that hampered our abilities to work with the 
Colombian government, in terms of our operations under Plan 
Colombia in any way?
    Admiral Stavridis. No, sir, it has not.
    Mr. Reyes. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    Admiral Stavridis--and I mispronounced that. I very much--
--
    Admiral Stavridis. No, you are good, sir.
    Mr. Jones. Well, you know, when you have got a name like 
Jones, it just makes everything else more difficult----
    Admiral Stavridis. I am thinking about changing my name to 
Jones. We will see. [Laughter.]
    Mr. Jones. No, I am going to practice, so next time it will 
not be a problem.
    Admiral Stavridis. That is fine, sir.
    Mr. Jones. Admiral, the reason--I want to ask you, with the 
responsibility--and, of course, you said you had been there 
five or six months, and maybe Admiral Keating or someone else 
can assist with this.
    I had the opportunity to meet with a gentleman--and I do 
not want to talk too much about this--who is now an American 
citizen, that helped our Federal Government in a way that he 
would qualify for special citizenship, and I will leave it at 
that--but he is from Honduras.
    And he brought to my attention that, in certain countries 
under your command, that there seems to be a migration of Arabs 
moving in--and I am not talking about terrorists, but I am 
talking about Arabs who are coming into the population, 
starting businesses and becoming a part of the community.
    Are you seeing in any of these countries, or your staff, 
where there are a fair number of Arabs moving from other 
countries into some of these Central American countries for the 
purpose, not of terrorism--I want to make that clear--but to 
become part of the society?
    Admiral Stavridis. There are concentrations of Arab 
populations, as well as Islamic populations, throughout Latin 
America and the Caribbean, sir.
    Numbers are hard to define, as they always are, and nailing 
down either religious or ethnic, particular, specific numbers 
in many countries. But the numbers I have seen are in the range 
of three million to six million Islamic. And of that, a 
significant population traces their roots to the Arab world. 
The total population in the region is about 450 million, so you 
are probably in the 1 percent range.
    The areas in which there are some concentrations, I think 
most well-known is the so-called tri-border area, which is the 
point in southern South America where Brazil, Argentina and 
Paraguay come together. In that region, there is a fairly 
robust Lebanese population.
    There are additionally some significant pockets in southern 
Brazil in a couple of their larger cities, particularly Sao 
Paulo. And on the northern coast of South America, there are 
some additional pockets. Again, you are in the one percent 
range.
    As is always the case, my assessment would be, the vast 
majority of those people are living in peace and are attempting 
to integrate themselves into the societies and in the country.
    However, we are concerned in some of those populations that 
there are indications of Hezbollah financing, recruiting, and 
proselytizing. Our intelligence folks are working closely with 
their counterparts in those countries as part of the global 
effort against the war on terrorism.
    Mr. Jones. Well, the gentleman that I am making reference 
to suggested that I get the book, I think the title is The Dove 
and Abdullah. And his concern--of course, he is now an American 
citizen--was that many of those people, as you said yourself, 
Admiral, are coming there with true purposes, the right 
purposes. But there could be those who have relationships, or 
want to see relationships that you made mention to, develop.
    And I have thought for a long time about that, as a Member 
of Congress, and nothing I can really do about it but speak out 
and show interest. But I have felt for too long that this 
nation has not paid the right attention that it needed to with 
Central and South America, really from an economic standpoint, 
that if we cannot help the natives of those countries, then 
they are going to look elsewhere. And that could really present 
a serious security problem for us.
    So, thank you very much for your answer.
    Admiral Stavridis. Thank you, sir.
    Mr. Reyes. Thank you, Mr. Jones.
    Mr. Sestak.
    Mr. Sestak. Generals, Admirals.
    General, if I could ask you a couple of questions on the 
Reliable Replacement Warhead for the Conventional Trident 
Missile, the ballistic missile conventional.
    General, how will a foreign nation discriminate between a 
nuclear and a conventional ballistic missile coming from the 
center of the ocean? Russia, China--by the time we have it out 
there, 2013--potentially Iran, India.
    General Cartwright. The ambiguity issue is one that we have 
talked a lot about.
    We, today, have treaty and protocol activities associated 
with contacts. So, if we are testing or we are doing some sort 
of a----
    Mr. Sestak. Yes, sir. But this is a sudden crisis, one 
hour.
    General Cartwright. Understand. But these are in place for 
our exercises, and whatnot, and have been in place for a lot of 
years.
    We have done about 470 Trident launches with these 
protocols in place, where we exchange information--principally 
with the Russians today, trying to expand that out to the 
Chinese.
    What we are trying to establish for operational activities 
is what is called the Joint Data Exchange Center, which is set 
up right now with Russia, so that we share real-time 
information----
    Mr. Sestak. So, in a real crisis--General, if you don't 
mind--in a real crisis, you would actually let them know that 
within an hour you are going to launch?
    General Cartwright. That is the----
    Mr. Sestak. So, you would let Russia and China know that.
    General Cartwright. That is the intent today.
    Mr. Sestak. India? Iran?
    General Cartwright. We are working to expand that out. But 
the initial effort over the past year is to codify this with 
the Russians.
    Mr. Sestak. Well, how do you feel about China and Russia 
developing the same capability?
    General Cartwright. To me, to start to reduce the numbers 
of weapons of mass destruction is a positive attribute. To the 
extent that we can replace them and get the attributes we need 
in an offensive system with something other than a mass 
destruction, that is a positive vector.
    The question is second-and third-order effects, and being 
able to understand what those might be. Ambiguity----
    Mr. Sestak. So, but what do you feel about China and Russia 
developing one?
    General Cartwright. I think that they are----
    Mr. Sestak. Is that a good thing?
    General Cartwright. I would certainly encourage----
    Mr. Sestak. A conventional ballistic missile from their 
submarines.
    General Cartwright. From their submarines, from their 
silos----
    Mr. Sestak. And they would warn us an hour before they 
would launch it, so we would know it would not be a nuclear 
one.
    General Cartwright. Again, there are multiple activities 
going on here. Overflight, is it anywhere near your country, et 
cetera. But, yes, to reduce that ambiguity to the maximum 
extent practicable----
    Mr. Sestak. General, what are two scenarios you can see us 
using this in?
    General Cartwright. Two scenarios that would come to mind 
are targets that are deep. Let us take as an example the recent 
ASAT test.
    If the target is deep and you want to go in there and 
ensure there cannot be a second launch, then having a 
conventional capability against something that was launched 
that was conventional in nature, as the ASAT is, that seems to 
me to be an appropriate target to defend our interests in 
space.
    Another is a fleeting target, in which the timelines are 
short, whether they be short-range or medium-range ballistic 
missiles or a terrorist camp, where you have an offensive 
action that is already under way, and you are trying to be 
appropriate in maintaining control over escalation and drive 
this away from a weapon of mass destruction. That would be 
another scenario where this one might be appropriate----
    Mr. Sestak. What is the end-to-end architecture needed in 
order to be able to use something within one hour of detection 
and launch?
    General Cartwright. We look at three key pieces, the 
command and control, to be able to make the decisions and do 
the planning in those timelines. The second is the 
intelligence, surveillance, and reconnaissance (ISR), to 
connect what we call the fixed piece, and then find, fix, and 
then finish.
    So, you need the missile and the warhead, in this case in 
the submarine. You need an ISR capability that connects the 
dots and provides the right location of the target. And then 
you need the command and control to----
    Mr. Sestak. What is the commensurate timeframe you think we 
would be able to have this? And even if you have an idea of the 
costs?
    General Cartwright. The easier targets are the ones that 
are fixed in known locations. That helps you a lot.
    The harder targets are the mobile targets, those that are 
hidden. The harder the target, the longer today. But today, the 
command and control, we believe is in place.
    The ISR needs to be integrated better, and we are working 
on that. And that is not terribly expensive. It is more about 
connecting the right dots.
    Mr. Sestak. But the satellite system, does this require 
transformational satellite (TSAT) and----
    General Cartwright. No. No. We have in place both the air, 
the space and the terrestrial capabilities to move this 
information in that timeline.
    Mr. Sestak. But actually to see a fleeting target in one 
hour that you have been hunting for, and then strike it within 
that hour?
    General Cartwright. Again, the easier----
    Mr. Sestak. This with space-based radar----
    General Cartwright. You see, your timelines are associated 
with the fixed targets. The more challenging are the mobile 
targets. They may take longer than an hour. It just depends on 
if it is in some place you knew about, or you are going 
someplace you had no idea, and you get down to mensuration, and 
things like that.
    Mr. Sestak. So, you are comfortable that the word from the 
Chinese and the Russians, that that is not a nuclear weapon, is 
what we will rely upon.
    General Cartwright. We are on a path to ensure that that is 
the case and to reduce the ambiguity to the maximum extent 
practical.
    Mr. Sestak. Thank you, sir.
    The Chairman. Thank you.
    Dr. Gingrey.
    Dr. Gingrey. Thank you, Mr. Chairman.
    Admiral Stavridis, in your written testimony, you included 
background information pertaining to the Western Hemisphere 
Institute for Security Cooperation, WHINSEC, and briefly 
discussed its mission.
    I have got a number of questions that I want to ask you in 
regard to that.
    Can you elaborate for the members of this committee on this 
program and what it is achieving? Is it effective in promoting 
relations with other nations? Is it succeeding in its mission 
to spread democracy while preventing human rights abuses?
    And I ask these questions, Admiral, because I know--I am 
sure you know--that there are members of this House of 
Representatives, and, indeed, maybe even members of this 
committee, who would want to cut off funding for WHINSEC.
    And I, as a member of the Board of Visitors, representing 
this committee on the minority side, formerly on the majority 
side, am very concerned.
    And I want to also ask you specifically, as commander of 
the United States Southern Command, do you believe we should 
fund this institute? And what would be the consequences of 
actually cutting the funding to WHINSEC?
    Admiral Stavridis. Thank you very much, sir. I am going to 
ask Admiral Keating to also comment, because Mexico is part of 
the equation, I believe, in answering this question correctly.
    The Western Hemisphere Institute is a superb, superb 
operation. Now, it does not work for me. I am on the Board of 
Visitors, sir, as you are, as is Senator Levin, representing 
the majority side. So, I think there is a balanced 
representation on the Board of Visitors.
    And I believe all of us on the Board of Visitors who have 
actually spent time would attest to the fact that this 200-
person faculty, which is drawn from nations all around the 
region, in addition to U.S. military personnel, has a 
curriculum.
    It is taught in Spanish. We talked earlier about the 
importance of languages here. A subset is taught in Portuguese 
for our Brazilian counterparts.
    We put well over 1,000 students through the school in any 
given year. And we create an opportunity for a real generation 
of mid-grade officers to come to the United States, study and 
learn about our military, and do it in their own language, 
while having the opportunity to interact with our citizens 
here.
    They then go back to their countries, and they go on to 
positions of senior leadership. The institute is one of the 
strongest methodologies we have to connect us with the nations 
of this region.
    I want to specifically mention, it is, without question, 
the crown jewel for the study of human rights and how a 
military ought to respect human rights. It is fundamental to 
the curriculum.
    Every student who comes gets between 20 and 50 hours of 
instruction in human rights and I believe leaves the institute 
with a rock-solid basis to go back to their own military and 
inculcate that view of the importance of human rights in a 
military.
    So, I believe it is an exemplary institution. Again, it 
does not work for me, so I am not blowing my own horn here. I 
am observing another command's institute. It is part of the 
U.S. Army, and I believe it is superbly run and vitally 
important.
    Dr. Gingrey. Admiral Keating, would you care to comment, as 
well?
    Admiral Keating. And, Doctor, I will try and be brief.
    Because of our increasingly robust theater security 
cooperation efforts with Mexico, we, too, place high importance 
on the institute's progress. And we welcome them twice a year, 
I believe. If that is not right, I will get back to you.
    As part of their course, their curriculum, they come to 
Northern Command and we spend about a day, a day-and-a-half 
with them. So, we share the same opinion as the commander of 
Southern Command.
    Dr. Gingrey. Mr. Chairman, in just the few seconds that I 
have got left, I just want to say for the record that, of 
course, I have been to the WHINSEC facility on several 
occasions, and I certainly can attest to the value of the 
program. And I appreciate the admirals sharing that with us.
    WHINSEC is succeeding in its mission to provide 
professional education and training to military personnel. 
Actually, in addition to them, law enforcement officials, 
civilians that support the democratic principles of the charter 
of the Organization of American States.
    So, I am gravely concerned about any movement toward 
defunding such a great program, and I certainly appreciate the 
testimony of Admiral Keating and Admiral Stavridis, and I yield 
back the balance of my time.
    Thank you, Mr. Chairman.
    Admiral Stavridis. Sir, may I just add, sir, that I would 
encourage any congressman who has any doubt to come and visit 
the institute.
    Dr. Gingrey. Well, Admiral, thank you.
    Mr. Chairman, if you will permit me, I was going to suggest 
the very same thing. I think it would be a great CODEL for the 
members of this committee in a bipartisan way to go down to 
Columbus, Georgia, the home of the infantry, a great part of my 
state, formerly in my district. And I think it would be--you 
know, what you see with your eyes is worth 1,000 words. And I 
think that is exactly what we ought to do.
    And I thank you, Admiral, for that suggestion.
    The Chairman. I associate my thoughts with the gentleman 
from Georgia. I am familiar with the institute quite well, and 
actually, its predecessor, which I had the occasion to visit 
when I was sitting down on the front row of this committee.
    So, thank you for your thoughts on that.
    Last but not least, the gentleman from California, Mr. 
Hunter.
    Mr. Abercrombie. Mr. Chairman, I have another question I 
would like to ask.
    The Chairman. Yes. As soon as Mr. Hunter has finished.
    Mr. Hunter. Thank you. Thank you, Mr. Chairman. And thanks 
for the hearing, an excellent hearing.
    And I will try to be brief. I know we have votes coming up 
pretty shortly.
    General Cartwright, you have got this missile defense 
responsibility, at least in terminal phase. And the combatant 
commands are arranged mostly geographically, with areas of 
responsibility that an incoming missile is going to transit 
fairly rapidly.
    Just generally speaking, really two questions: What are 
your thoughts on how effectively we are organizing to be able 
to handle the transit of a single missile over several areas of 
responsibility?
    And second, what is your personal take on how effectively 
and efficiently we are developing our missile defenses? Just 
your general, personal take on how things are going.
    General Cartwright. The first is the command and control 
question. Just using the example of the activities in July with 
North Korea, you are spanning about nine time zones and you 
have at least four different combatant commanders with equities 
in the activity, not the least of which is probably the target 
in Northern Command.
    And so, how we work this activity, because the sensors may 
live, so to speak, in different AORs. They may not even belong 
to the Department of Defense. They may not belong to the United 
States.
    And so, we have to work this in a way that is very cross-
compartment in ways that we have never had to integrate systems 
before. And that has been a challenge.
    I have to say, though, that the technology has moved us in 
a direction to solve most of those challenges and to ensure 
that the visibility is out there for each combatant commander 
that has equity.
    They can see what is happening. They can know immediately 
what their equities are, whether it is consequence management, 
whether it is part of the fire control solution, whether it is 
notification that something is going to fly over someone's 
territory.
    So, the technology has helped us move in the right 
direction. I think that we are moving in a direction that says 
that, if you have an equity in this, you need to be able to 
have a voice.
    You need to be able to see what is happening and make that 
transparent, and then be able to register any concerns that you 
might have with an intercept that is occurring, even though the 
decision timelines are down in the four- to six-minute 
timeline.
    That system is starting to emerge. We run it daily in 
exercise, to start to train to this.
    The most difficult challenge is, most of the time we try to 
do this by voice, when we get the senior leadership together. 
Voice tends to be a very slow way to get discovery of situation 
awareness and make a decision. We have got to do that part of 
it better. We are exercising that now.
    The secretary of defense has put in place an exercise 
program that will start to move us more to a data picture, so 
you can see very quickly what the situation is that everybody 
shares. And when we get that, I think we will be in better 
stand. That is the first piece of the question.
    How is the system moving? To me, the credibility, the 
deterrent value has gone up significantly since the activities 
associated with the 4th of July and North Korea.
    There is no doubt in our mind, and clearly in the minds of 
our allies, that there is value in missile defense. It offers 
you an alternative to an offensive-only strategy, for many 
countries. That is point one.
    Point two is, I think we have to start focusing on our 
deployed forces and our allies, and allowing them to plug into 
this system and develop for them what they believe are the 
attributes of a defensive system, whether it is the Israelis 
and the aero system, or the Brits--or whoever needs this.
    That is the direction we have to start to move.
    Mr. Hunter. Mr. Chairman, I might just ask, with my 
remaining time, if any of our witnesses have anything that they 
have not talked about that is on their mind, as we conclude 
this hearing.
    Gentlemen, any parting shots you would like to give the 
committee here?
    General Schwartz. Congressman Hunter, if I may, quickly, I 
do have one concern. And that relates to an issue under 
consideration by the House related to the Armenian genocide in 
the early 1900s.
    The resolution, I am told, will come to the floor either 
later this month or in the very early part of April.
    I just want to alert the members that that resolution may 
trigger a reaction from the Turkish government, which would 
limit our access at Incirlik Air Base, which we operate there.
    That cargo hub moves almost 75 percent of the cargo we send 
to Iraq, and last year was 55,000 tons.
    And so, I just wish to alert the members that an unintended 
consequence of that resolution could be to make our job much 
harder to support the troops downrange.
    Thank you, sir, for that opportunity.
    Admiral Stavridis. If I could, sir, I would simply 
encourage the committee and the members of the committee to 
come travel in the region. There is no substitute for personal 
contact, personal knowledge.
    Senator Nelson came down recently, Senator Reid, over on 
the Senate side. I am going, I believe, with Representative 
Meek down to Haiti in a few weeks. I would really welcome the 
opportunity to see the members come travel in this important 
part of the world.
    Thank you.
    The Chairman. Before I call Mr. Meek, General Schwartz, my 
recollection is that the French assembly--correct me if I am 
wrong--the French assembly passed a resolution regarding the 
1915 genocide occurrence. And as a result thereof, Turkey cut 
off all military connection, as well as the contracts with 
France.
    Am I correct?
    General Schwartz. Sir, not all military-to-military 
relationships. For example, the NATO relationships, as I 
understand it, remain intact. But those commercial interfaces 
certainly were cut off.
    As I understand it, the Office of Defense Cooperation that 
France has in Ankara closed. In addition, the blanket 
overflight clearance, which Turkey had allowed France to 
exercise, was also terminated.
    And for us, the overflight clearance issue would be a 
significant matter.
    The Chairman. Thank you very much.
    Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman.
    And I must say that, you note that I am a little delayed 
here today, but I did get here in time.
    I have, Mr. Chairman, the congressman-to-be with me. He is 
on spring break this week, so we are working together here in 
the Capitol--my son.
    Generals, Admirals, I am glad that you all have come before 
us today.
    And I think the question on the resolution, General, that 
you just outlined, that is the kind of information we need to 
know here in Congress.
    And, Admiral, as you know, we are going to go down to Haiti 
in a couple of weeks. And I guess I wanted to ask you a 
question, because we have two free trade agreements, I believe, 
that is in your area, that is being considered before Congress.
    Have you heard anything from your counterparts on the other 
side, on the military's part? Is State working with you?
    Because I know, down in your command, basically, the 
Southern Command has been our attache, our State Department--
everything. And I know that we are trying to refocus down there 
with Central American Free Trade Agreement (CAFTA) and a number 
of other agreements, but we have two that are pending.
    Have you heard anything?
    Admiral Stavridis. Thank you for the question, sir. I have, 
indeed.
    As I travel and talk to my interlocutors in the military-
to-military venue, there is strong support, as they perceive 
it, as a matter of security, to have that kind of agreement 
with the United States.
    And they often refer, as you just alluded to, sir, to the 
Central American Free Trade Agreement, which the Congress 
passed, and has been of significant benefit in Central America 
in strengthening our relations there.
    So, as always, the lead on those kinds of things is with 
the State Department, with the Department of Commerce, and so 
forth. But from a security perspective, what I hear from my 
counterparts is support for that.
    Mr. Meek. Okay.
    Mr. Chairman, and I must say that you and the ranking 
member now, Mr. Duncan, have been supportive of not only my 
movements in Haiti, but also then very successful within the 
mark, to be charitable, not only to the Southern Command, but 
also to our mission.
    As you know, in the last 10 years we have--or last 15 
years--we have had to go down twice to bring about peace in 
Haiti. Now, more than ever, we have the opportunity, not only 
through the U.N. and the United Nation Stabilization Mission in 
Haiti (MINUSTAH) and other countries like Canada and others 
that are contributing in Haiti, may very well assist us in 
securing the kind of democracy that we need in Haiti.
    And I would encourage, just like the admiral did, members 
of the House and of the Senate to travel to Haiti and travel in 
the Southern Command region.
    Admiral, one other question as it relates to the trip, as 
it pertains to Cite Soleil, I know that the United States 
Agency for International Development (USAID) has a presence 
there. As it relates to the future and security, I know that 
taking down Cite Soleil--and MINUSTAH took out the gangs--but 
long-term security, Haiti so many times has been like a roller 
coaster. It is secured and it is non-secured.
    And because of the drug activity that is taking place, the 
gang activity--for most, thuggery--what kind of plans do you 
feel long-term that we can put in place so that we do not have 
to continue to give our military assets to a country that 
really should not need it, because the Haitian people are 
peaceful people?
    And also, as a mission to stop Haitians from taking to sea, 
and that usually gets the attention of not only the United 
States, but the Bahamas, Turks and Caicos and other islands?
    Long term where are we? We know we made a $20 million 
investment recently, but where are we as it relates to long-
term plans?
    Admiral Stavridis. Thanks for the question, Congressman.
    First of all, I want to really applaud the excellence of 
the United Nations mission there, which is doing a fine job. As 
you know, there are 6,600 peacekeepers on the ground, about 
half of them coming from the region. So, this is very much a 
regional effort in security.
    And I think the first and best thing we can do, we the 
United States, is to encourage that kind of a regional solution 
in Haiti, to continue to ask the nations that are contributing 
peacekeepers, people like Brazil and Argentina and Colombia and 
Chile and Uruguay, to go the next step and to be participants 
in economic efforts in the country of Haiti.
    Second, in terms of the narcotics, I think that is 
absolutely correct. That is a growing concern, and we need to--
we the United States government, through interagency means--
need to bring partnership and capability to our friends in 
Haiti, so they can rid themselves of this drug scourge, and so 
it does not undermine this very fragile democracy in Haiti.
    So, regionalism, interagency approaches, I think are the 
way to go here, and a continued judicious approach with the use 
of U.S. aid, which, of course, is not my purview. And, of 
course, you will be hearing testimony from Department of State 
representatives there.
    For our purposes we have, at U.S. Southern Command, we have 
a military group commander there who is very helpful in working 
with the Haitian military, and you and I will have a chance to 
get a briefing from him on this subject when we go down.
    Overall I am hopeful about Haiti. I think it could be an 
example of where regionalism and interagency efforts, which we 
have talked about this morning, could really solve a real 
problem in our hemisphere.
    Mr. Meek. Well, thank you so very much, Admiral.
    I want to thank also the generals for being here.
    And, Mr. Chairman, thank you for allowing me to ask the 
questions.
    And I just would want to say to both of you publicly, I 
appreciate your support, not only for the Southern Command, but 
also the support that you have given me as a member of this 
committee, to go down on behalf of the committee and learn more 
about our activities under our jurisdiction there in Haiti, so 
thank you.
    The Chairman. Thank the gentleman from Florida. It is 
always good to welcome members of families, so they can see 
their parents hard at work.
    And, Kendrick Meek, Jr., we welcome you, sir. Glad to have 
you in the audience. Thank you very much.
    Mr. Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman.
    Admiral Keating, by the time you get to the Pacific 
Command, you may be thinking that this will be a relief for 
you.
    Are you a member, I mean, institutionally, of the Homeland 
Security Council?
    Admiral Keating. No, sir.
    Mr. Abercrombie. Okay. That is unfortunate.
    I am making reference here to the Joint Force headquarters, 
the National Capital Region at Fort McNair, because that deals 
with incident management in terms of homeland defense. And then 
the Joint Task Force Civil Support at Fort Monroe in Virginia.
    The reason I mention that is that, that has, at least in my 
information, command and control responsibilities with regard 
to catastrophic events, including nuclear or high-yield 
explosive events.
    The reason I bring that up is that, there is a story 
today--and I bring it to your attention not expecting you to 
necessarily have it in front of you, because it is so recent--a 
story today in The Washington Post concerning a government 
report provided by the Homeland Security Council and the Energy 
Department, with regard to the lack of definitive plans for a 
situation in which you might have a nuclear attack or a 
terrorist attack using the so-called dirty bombs radiological 
attack.
    Northern Command, again, I will not get into an argument or 
a colloquy about what control and command means, or what 
coordination means, and so on.
    But I am bringing it to your attention, because what the 
contention is, is that the government lacks rules and standards 
for sending out first responders in radiated areas to save 
people or warn them of approaching fallout, even including 
standards for firefighters, et cetera.
    Now, it would seem to me, at a minimum, that this is the 
kind of coordination, should it exist, that needs to take 
place.
    Now, if this is, in fact, so, or if this is the contention, 
can you state with any certainty that, as a result of your 
various exercises and planning sessions and so, that this 
report would also be inaccurate?
    Admiral Keating. Congressman, we conducted an exercise in 
the fall, we in Northern Command and Department of Homeland----
    Mr. Abercrombie. Excuse me. I should have said 
parenthetically, they made specific reference to Washington, 
D.C. That is why I cited the two, the Fort Monroe and Fort 
McNair.
    Admiral Keating. So, as a little bit of preamble, we 
conducted an exercise in the fall--not just Northern Command, 
but a broad interagency effort, including the Department of 
Homeland Security and the Michigan National Guard in which, 
during the exercise scenario, a radiological dispersal device, 
a dirty bomb was detonated in Detroit, Michigan, and fallout 
went across the river into Canada.
    So, we did not just----
    Mr. Abercrombie. I am familiar with that.
    Admiral Keating. So we had international implication, as 
well as significant national implication.
    Major General Bruce Davis, National Guard office, deployed 
from Joint Task Force Civil Support Headquarters, with the lead 
element of his assessment team--that is what Joint Task Force 
Civil Support does--to the area.
    They physically went to Detroit, integrated with state and 
local responders and Department of Homeland Security officials 
to assess the damage, figuratively, and begin to provide the 
command and control and collaboration and coordination that you 
describe, in a simulated event with real-world folks moving 
around. So, we exercise to that scenario, Congressman.
    Joint Task Force National Capital Region, and one of our 
subordinate commands, tasked with a broader set of requirements 
for addressing defending--the many aspects of defending the 
National Capital Region, including the integrated defense 
system of the missiles that ring the National Capital Region.
    So, with those two examples for JTF Civil Support and JTF 
National Capital Region, I am satisfied that I can report to 
you that we have plans on the shelf for responding to 
disasters--natural or manmade--up through and including nuclear 
disasters, on a combatant commander level.
    Mr. Abercrombie. Would it be fair to say, then, that this 
report--and these, by the way, are at least two years old. And 
my guess, my estimation is that it is probably at least two 
years.
    Since the time these reports were done, or these 
observations were made, would it be fair to say that your 
contention is that that issue, or those issues raised in that 
report, as I outlined them to you, have been taken into account 
and you are trying to exercise or make plans to be able to 
address the kinds of situations that I raised for you?
    Admiral Keating. Precisely.
    Mr. Abercrombie. Okay. Let us leave it at that.
    I commend that to your attention, particularly the one from 
the National Nuclear Security Administration, NNSA, of the 
Energy Department.
    Admiral Keating. Thank you, sir.
    Mr. Abercrombie. And we will take it from there. Thank you 
very much.
    I have some questions also for, Mr. Chairman, for TRANSCOM, 
which I would like to submit for the record to get an answer.
    The Chairman. Without objection.
    Mr. Abercrombie. Thank you very much.
    The Chairman. Thank you.
    Mr. Abercrombie. I wish you good fortune and aloha, 
Admiral, as you head to Honolulu.
    Admiral Keating. Looking forward to it, Congressman.
    The Chairman. The good news is you inherit Mr. Abercrombie. 
[Laughter.]
    Admiral Keating. Can't wait.
    The Chairman. You will love it.
    Mr. Abercrombie. You are used to dealing with challenges, 
right?
    The Chairman. He is great to work with, Admiral.
    Admiral Stavridis, I understand that the Afghan National 
Interdiction Unit is attending an 18-week jungle commando 
course in Colombia. Do you know anything about that?
    Admiral Stavridis. I do not have the details on that. I 
will be happy to get them and give them to you for the record, 
sir.
    [The information referred to can be found in the Appendix 
beginning on page 147.]
    The Chairman. Would you do that, please?
    Admiral Stavridis. Yes, sir.
    The Chairman. The military is always trying to apply 
lessons learned. At least that is part of nearly every briefing 
we receive.
    Admiral Keating, lessons learned from Katrina. What did you 
learn, positive, negative?
    Admiral Keating. Some of both, Mr. Chairman. And we are 
working very hard to differentiate between lessons observed and 
lessons learned. All kinds of folks have long lists of should-
have, would-have, could-have.
    Throughout the agencies where we spend our time--
principally FEMA, DHS and DOD--we are working hard to take 
lessons observed and make sure they are lessons learned, and 
hopefully not mistakes repeated.
    Examples would include communication. We have, since 
Katrina, contracted for--through your direct help, you will 
recall--and obtain funding for three separate cell phone farms, 
if you will, so if the infrastructure is wiped slick, let's 
say, in Congressman Taylor's region of Gulfport, Mississippi, 
we airlift or through air, land or water, media.
    We will get the cell phone farms where we put up a tower, 
we fire up a generator and we pass out hundreds and hundreds of 
cell phones--don't care who gets them--and satellite phones.
    DHS has a dozen-plus of those same systems. National Guard 
has a dozen-plus. So, where there were none, there are now 
upwards of 30, I think is the number, but it is between 20 and 
30 of these entirely self-sufficient organic cell phone farms.
    We have defense coordinating officers embedded full-time, 
active duty colonels, who are trained in the art of disaster 
response, who are embedded in each of the FEMA regions.
    We have provided our planning expertise--and I use that 
term advisedly. You will appreciate it better than most, 
perhaps, because we in the military have this planning culture, 
because we have had the opportunity to capitalize on the 
educational reform that you have provided for us.
    We have provided planners to FEMA, to the Department of 
Homeland Security. And we have full-time representatives in 
FEMA and the Department of Homeland Security, and they have 
full-time representatives in our headquarters.
    So, we have taken the larger strategic issues and tried to 
rectify those, and we are down even in the tactical level for 
ability to communicate. And we do not care, it is not just 
guard or reserve or active forces. Whoever needs a cell phone, 
we will pass it out until such time as the commercial 
infrastructure can re-support.
    The Chairman. I think you might find it of interest, 
Admiral, that in Missouri National Guard, particularly the unit 
in Jefferson City at the headquarters there, is training in the 
communication challenge that we might have, should there be 
another New Madrid Fault earthquake, which last happened in 
1811, which caused the Mississippi River to flow backward. And 
it evidently was a local disaster all along the Mississippi 
River Valley.
    I jokingly told a Missouri guardsman that they are training 
in this communication operation for something that is not going 
to happen for another 400 years. And hopefully I am right. But 
they did seem very, very serious in what they were doing.
    General Cartwright, very quickly, describe the process 
involved in setting the nuclear force structure requirements.
    General Cartwright. In setting the nuclear force----
    The Chairman. Force structure requirements.
    General Cartwright. Force structure requirements.
    The Chairman. Yes.
    General Cartwright. We are given guidance as to the types 
of capabilities that our adversaries possess, that the 
government desires to hold at risk. We look at that. We compare 
the desired effect to the inventory required to get that 
effect. And then we match them with timeliness factors to 
obtain those objectives.
    And we set that down. We write it down, we exercise it, we 
war-game it, and we pass it back up. We have a feedback loop to 
learn as we move forward.
    There are a lot of factors in this that change our 
equations--precision, timeliness, delivery factors, reliability 
of weapons. All of that is considered in that activity.
    The Chairman. Thank you.
    I thank you, gentlemen.
    I do have one last question for General Schwartz. Very 
quickly, can you touch on the thoughts of retiring C-5s, in 25 
words or less?
    General Schwartz. Mr. Chairman, again, I would not 
recommend retiring C-5s unless we have access to additional C-
17s. In which case I would recommend retiring the older 
airplanes, the A models, first, both in a manner which we could 
harvest the crews and maintenance to apply to the new airplanes 
and, likewise, enhance the reliability of the entire system as 
a result.
    The Chairman. Thank you very much. It has been an excellent 
hearing, and I appreciate, all of us appreciate, you gentlemen 
being with us.
    Admiral Keating, good luck in your new assignment.
    Thank you very much.
    [Whereupon, at 12:24 p.m., the committee was adjourned.]


======================================================================




                            A P P E N D I X

                             March 21, 2007

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 21, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37320.001
    
    [GRAPHIC] [TIFF OMITTED] 37320.002
    
    [GRAPHIC] [TIFF OMITTED] 37320.003
    
    [GRAPHIC] [TIFF OMITTED] 37320.004
    
    [GRAPHIC] [TIFF OMITTED] 37320.005
    
    [GRAPHIC] [TIFF OMITTED] 37320.006
    
    [GRAPHIC] [TIFF OMITTED] 37320.007
    
    [GRAPHIC] [TIFF OMITTED] 37320.008
    
    [GRAPHIC] [TIFF OMITTED] 37320.009
    
    [GRAPHIC] [TIFF OMITTED] 37320.010
    
    [GRAPHIC] [TIFF OMITTED] 37320.011
    
    [GRAPHIC] [TIFF OMITTED] 37320.012
    
    [GRAPHIC] [TIFF OMITTED] 37320.013
    
    [GRAPHIC] [TIFF OMITTED] 37320.014
    
    [GRAPHIC] [TIFF OMITTED] 37320.015
    
    [GRAPHIC] [TIFF OMITTED] 37320.016
    
    [GRAPHIC] [TIFF OMITTED] 37320.017
    
    [GRAPHIC] [TIFF OMITTED] 37320.018
    
    [GRAPHIC] [TIFF OMITTED] 37320.019
    
    [GRAPHIC] [TIFF OMITTED] 37320.020
    
    [GRAPHIC] [TIFF OMITTED] 37320.021
    
    [GRAPHIC] [TIFF OMITTED] 37320.022
    
    [GRAPHIC] [TIFF OMITTED] 37320.023
    
    [GRAPHIC] [TIFF OMITTED] 37320.024
    
    [GRAPHIC] [TIFF OMITTED] 37320.025
    
    [GRAPHIC] [TIFF OMITTED] 37320.026
    
    [GRAPHIC] [TIFF OMITTED] 37320.027
    
    [GRAPHIC] [TIFF OMITTED] 37320.028
    
    [GRAPHIC] [TIFF OMITTED] 37320.029
    
    [GRAPHIC] [TIFF OMITTED] 37320.030
    
    [GRAPHIC] [TIFF OMITTED] 37320.031
    
    [GRAPHIC] [TIFF OMITTED] 37320.032
    
    [GRAPHIC] [TIFF OMITTED] 37320.033
    
    [GRAPHIC] [TIFF OMITTED] 37320.034
    
    [GRAPHIC] [TIFF OMITTED] 37320.035
    
    [GRAPHIC] [TIFF OMITTED] 37320.036
    
    [GRAPHIC] [TIFF OMITTED] 37320.037
    
    [GRAPHIC] [TIFF OMITTED] 37320.038
    
    [GRAPHIC] [TIFF OMITTED] 37320.039
    
    [GRAPHIC] [TIFF OMITTED] 37320.040
    
    [GRAPHIC] [TIFF OMITTED] 37320.041
    
    [GRAPHIC] [TIFF OMITTED] 37320.042
    
    [GRAPHIC] [TIFF OMITTED] 37320.043
    
    [GRAPHIC] [TIFF OMITTED] 37320.044
    
    [GRAPHIC] [TIFF OMITTED] 37320.045
    
    [GRAPHIC] [TIFF OMITTED] 37320.046
    
    [GRAPHIC] [TIFF OMITTED] 37320.047
    
    [GRAPHIC] [TIFF OMITTED] 37320.048
    
    [GRAPHIC] [TIFF OMITTED] 37320.049
    
    [GRAPHIC] [TIFF OMITTED] 37320.050
    
    [GRAPHIC] [TIFF OMITTED] 37320.051
    
    [GRAPHIC] [TIFF OMITTED] 37320.052
    
    [GRAPHIC] [TIFF OMITTED] 37320.053
    
    [GRAPHIC] [TIFF OMITTED] 37320.054
    
    [GRAPHIC] [TIFF OMITTED] 37320.055
    
    [GRAPHIC] [TIFF OMITTED] 37320.056
    
    [GRAPHIC] [TIFF OMITTED] 37320.057
    
    [GRAPHIC] [TIFF OMITTED] 37320.058
    
    [GRAPHIC] [TIFF OMITTED] 37320.059
    
    [GRAPHIC] [TIFF OMITTED] 37320.060
    
    [GRAPHIC] [TIFF OMITTED] 37320.061
    
    [GRAPHIC] [TIFF OMITTED] 37320.062
    
    [GRAPHIC] [TIFF OMITTED] 37320.063
    
    [GRAPHIC] [TIFF OMITTED] 37320.064
    
    [GRAPHIC] [TIFF OMITTED] 37320.065
    
    [GRAPHIC] [TIFF OMITTED] 37320.066
    
    [GRAPHIC] [TIFF OMITTED] 37320.067
    
    [GRAPHIC] [TIFF OMITTED] 37320.068
    
    [GRAPHIC] [TIFF OMITTED] 37320.069
    
    [GRAPHIC] [TIFF OMITTED] 37320.070
    
    [GRAPHIC] [TIFF OMITTED] 37320.071
    
    [GRAPHIC] [TIFF OMITTED] 37320.072
    
    [GRAPHIC] [TIFF OMITTED] 37320.073
    
    [GRAPHIC] [TIFF OMITTED] 37320.074
    
    [GRAPHIC] [TIFF OMITTED] 37320.075
    
    [GRAPHIC] [TIFF OMITTED] 37320.076
    
    [GRAPHIC] [TIFF OMITTED] 37320.077
    
    [GRAPHIC] [TIFF OMITTED] 37320.078
    
    [GRAPHIC] [TIFF OMITTED] 37320.079
    
    [GRAPHIC] [TIFF OMITTED] 37320.080
    
    [GRAPHIC] [TIFF OMITTED] 37320.081
    
    [GRAPHIC] [TIFF OMITTED] 37320.082
    
    [GRAPHIC] [TIFF OMITTED] 37320.083
    
    [GRAPHIC] [TIFF OMITTED] 37320.084
    
    [GRAPHIC] [TIFF OMITTED] 37320.085
    
    [GRAPHIC] [TIFF OMITTED] 37320.086
    
    [GRAPHIC] [TIFF OMITTED] 37320.087
    
    [GRAPHIC] [TIFF OMITTED] 37320.088
    
    [GRAPHIC] [TIFF OMITTED] 37320.089
    
    [GRAPHIC] [TIFF OMITTED] 37320.090
    
    [GRAPHIC] [TIFF OMITTED] 37320.091
    
    [GRAPHIC] [TIFF OMITTED] 37320.092
    
    [GRAPHIC] [TIFF OMITTED] 37320.093
    
    [GRAPHIC] [TIFF OMITTED] 37320.094
    
    [GRAPHIC] [TIFF OMITTED] 37320.095
    
    [GRAPHIC] [TIFF OMITTED] 37320.096
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 21, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    The Chairman. Admiral Stavridis, I understand that the Afghan 
National Interdiction Unit is attending an 18-week jungle commando 
course in Colombia. Do you know anything about that?
    Admiral Stavridis. Sir, I do believe that you may be referring to 
the Afghan Initiative, and I can certainly speak to that.
    The Afghan Initiative was created to have Colombian counter-drug 
personnel share tactics, techniques, and procedures with their Afghan 
counterparts in prosecuting the war on drugs. To accomplish this goal, 
the governments of the United States, Britain, Colombia, and 
Afghanistan are coordinating various exchanges between Colombia and 
Afghanistan.
    An Afghan delegation, headed by the Counternarcotics Minister, 
visited Colombia in August 2005. This delegation visited the Colombian 
Ministry of Defense and the Colombian National Police (CNP) 
Headquarters in Bogota. They also visited the CNP Training Center in 
Espinal to observe the Colombian Anti-narcotics Police Jungla Commando 
Course. This Afghan Delegation requested that a team of Colombian 
subject matter experts conduct a training seminar in Afghanistan.
    The Colombian anti-narcotics police team visited Afghanistan in 
late July, 2006. The team included the Interdiction Chief and former 
Director of Anti-narcotics Intelligence, a fixed wing pilot and former 
Intelligence Officer, a Hughes 500 attack pilot, Head Instructor from 
the Anti-narcotics Police Training Center), and NAS Bogota Advisor to 
Jungla Airmobile Companies. Enroute to Kabul, the team had a three-day 
stopover in London where the UK Foreign and Commonwealth Office and 
Ministry of Defence provided briefings on counternarcotics efforts in 
Afghanistan. Upon arrival in Afghanistan, the team gave seminars to all 
key Afghan anti-narcotics officials (police, army, and ministry-level), 
the U.S. trainers and advisors in Afghanistan (Drug Enforcement Agency 
and Blackwater), UK Embassy Kabul personnel, the commander of the Kabul 
International Airport, and the rank and file members of the INL-funded 
Afghan Narcotics Interdiction Unit (NIU). The briefings focused on how 
Colombian police officers conduct their counterdrug operations. The 
Colombian police identified that personnel selection, training, 
organization, equipment, intelligence, and planning are the keys to 
success.
    During the Colombian team's outbrief to the Afghan Counternarcotics 
Ministry and U.S. Ambassador, Kabul, the Colombian team proposed three 
immediate follow-on exchanges:

    (1) Send five Afghan Narcotics Interdiction Unit (NIU) members to 
the Jungla Commando Basic Course in Espinal, Tolima (Feb. 12-June 16, 
2007)
    (2) Send two Colombia Jungla School instructors to the Afghan NIU 
training center in Kabul (March 12-May 1)
    (3) Send the Commander of the Kabul International Airport and staff 
to Colombia to visit the CNP airport security and counternarcotics 
programs (June 2007)
    In April 2007, INL asked that the Colombians conduct a six week 
seminar for 10 Afghan NIU members starting in September 2007. During a 
visit by Representatives Dennis Hastert and Ileana Ros-Lehtinen to 
Colombia in May, 2007, it was also proposed to send five mid-level 
Colombian Anti-narcotics Police to Afghanistan to observe Afghan NIU 
operations.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE
    Mr. Abercrombie. Given the personnel end strength increases of the 
Army and Marine Corps contained in the Future Years Defense Plan, do 
you believe the conclusions and assumptions of the 2005 Mobility 
Capability Study remain valid in determining the Department of 
Defense's mobility requirements?
    General Schwartz. The 2005 Mobility Capability Study was based on 
the 1-4-2-1 Department of Defense National Defense Strategy. The 
assumptions used for the MCS study have not been invalidated. The Army 
and the Marine Corps state the increases in their personnel end 
strength are focused on increasing home station dwell time. Therefore, 
unless the Services and Combatant Commanders identify a change in their 
concepts of operations, the conclusions reached in the MCS will remain 
valid. The next MCS, anticipated to begin in early 2008, will fully 
incorporate any changes in plans and requirements as a result of the 
Service force structure end strength increases.
    Mr. Abercrombie. The Air Force and the Army are contemplating 
procurement of a Joint Cargo Aircraft to complement the C-130 fleet and 
to increase efficiency of cargo capacity used during intra-theater 
airlift operations. What is the requirement, concept of operations, and 
what command authority will exercise operational control and tasking of 
both the Army and Air Force Joint Cargo Aircraft?
    General Schwartz. Various intra-theater studies are being conducted 
to explore the intra-theater demands to include the use of the JCA. The 
Intra-theater Lift Capability Assessment looked at in theater movement 
to the brigade rear. Additionally, the USTRANSCOM Joint Distribution 
Process Analysis Center is analyzing the movement forward from the 
brigade rear to the point of use and examining potential gaps and 
solutions for joint future theater airlift. The next Mobility Study, 
anticipated to begin in early 2008, should fully incorporate these 
analyses, and reconfirm the JCA requirement.
    JCA employment concept has not yet been finalized. However, the 
Draft CONOPS states ``during wartime, JCAs will be assigned to a 
Unified Combatant Command structure, and while in this capacity, will 
support combatant commanders' directed operations, across the range of 
military operations. The Joint Forces Commander (JFC) will have OPCON 
of all JCAs in the Joint Area of Operations. The JFC determines air 
capabilities/forces made available for joint air operations, in 
consultation with component commanders.''
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. I have proposed that retirees should qualify for 
Space-A travel at the category two priority level, and therefore, 
treated the same as authorized personnel on environmental morale leave 
status.
    Can you comment?
    General Schwartz. I take seriously your concerns regarding the 
appropriate priority level for retirees participating in the Space-A 
travel program. The Under Secretary of Defense (Acquisition, Technology 
and Logistics) was notified of your proposal and concerns. They are 
currently looking at possible courses of action in order to recommend a 
solution equitable not only to residents of Guam but also other 
retirees that might be in the same circumstances.

                                  <all>

</pre></body></html>
